APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(May 21, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Order in the United
States District Court, District of New
Jersey
(December 20, 2017) . . . . . . . . . . . App. 7
Appendix C Notice to Judgment Debtor in the
Superior Court of New Jersey and
Judgment Search Record
(August 2, 2017) . . . . . . . . . . . . . App. 18
Appendix D Opinion in the United States Court of
Appeals for the Third Circuit, No. 164108
(April 11, 2017) . . . . . . . . . . . . . . App. 20
Appendix E Opinion in the United States Court of
Appeals for the Third Circuit, No. 161352
(January 6, 2017) . . . . . . . . . . . . App. 32
Appendix F Opinion and Order in the United
States District Court, District of New
Jersey, No. 16-3121
(October 13, 2016) . . . . . . . . . . . . App. 38
Appendix G Opinion and Order in the United
States District Court, District of New
Jersey
(February 17, 2016) . . . . . . . . . . App. 56

ii
Appendix H Judgment in the United States
District Court, District of New Jersey
(December 21, 2015) . . . . . . . . . . App. 64
Appendix I Opinion in the United States Court of
Appeals for the Third Circuit, No. 141308
(October 1, 2014) . . . . . . . . . . . . . App. 66
Appendix J Opinion, Order and Judgment in the
United States District Court, District
of New Jersey
(January 24, 2014) . . . . . . . . . . . App. 76

App. 1

APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-1083
[Filed May 21, 2019]
_____________________________
NATIONAL ELEVATOR
)
INDUSTRY HEALTH
)
BENEFIT PLAN BOARD
)
OF TRUSTEES
)
)
v.
)
)
BERNARD MCLAUGHLIN,
)
Appellant )
_____________________________ )
Appeal from the United States District Court
for the District of New Jersey
(District Court No. 3-12-cv-04322)
District Judge: Hon. Anne E. Thompson
______________
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
September 27, 2018
______________
Before: SMITH, Chief Judge, McKEE, and
RESTREPO, Circuit Judges.

App. 2
(Opinion filed: May 21, 2019)
_______________________
OPINION*
_______________________
McKEE, Circuit Judge.
Bernard McLaughlin appeals the order of the
District Court denying his motion for relief from a
judgment pursuant to Federal Rules of Civil Procedure
60(b)(3) and 60(b)(5). He argues that the District Court
abused its discretion by not allowing discovery. For the
reasons that follow, we will affirm.
I.1
McLaughlin was injured in an all-terrain vehicle
accident and received an advance for medical benefits
from the Board of Trustees of the National Elevator
Industry Health Benefit Plan (the “Plan”) on the
condition that he reimburse the Plan should he recover
from a third party. McLaughlin received a settlement,
but refused to reimburse the Plan. The Plan filed suit
against McLaughlin to recover funds previously

*

This disposition is not an opinion of the full court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

1

The District Court had jurisdiction over the case pursuant to 29
U.S.C. § 1132. We have appellate jurisdiction pursuant to 28
U.S.C. § 1291.

App. 3
advanced. The District Court awarded summary
judgment in favor of the Plan and this Court affirmed.2
Following the appeal, the Plan filed suit against
McLaughlin to monetize the lien into a sum certain.
The District Court entered judgment in the amount of
$45,347.89 in favor of the Plan. McLaughlin moved to
vacate the judgment under Rule 60. The District Court
denied McLaughlin’s motion to vacate. This Court
affirmed.3
In June 2016, McLaughlin filed a collateral civil
action against the Plan challenging the Plan’s right to
enforce a set-off provision and argued that the Plan
was required to reimburse McLaughlin all withheld
medical expenses. The District Court granted the
Plan’s motion to dismiss on res judicata grounds.
Again, we affirmed.4
On August 2, 2017, after the time-frame for
McLaughlin to file a petition for certiorari to the
United States Supreme Court had expired, the Plan
docketed the judgment with the New Jersey Superior
Court. Pursuant to that docketing, McLaughlin moved
to vacate the order of judgment, styled as a Motion for
2

Bd. of Trs. of the Nat’l Elevator Indus. Health Benefit Plan v.
McLaughlin, 590 F. App’x 154 (3d Cir. 2014) [hereinafter
McLaughlin I].
3

Nat’l Elevator Indus. Health Benefit Plan Bd. of Trs. v.
McLaughlin, 674 F. App’x 189 (3d Cir. 2017) [hereinafter
McLaughlin II].

4

McLaughlin v. Bd. of Trs. of Nat’l Elevator Indus. Health Benefit
Plan, 686 F. App’x 118 (3d Cir. 2017) [hereinafter McLaughlin III].

App. 4
Relief from a Judgment pursuant to Federal Rule of
Civil Procedure 60(b)(3) and 60(b)(5). McLaughlin
sought relief on two grounds: first, that the Plan
committed misconduct by filing the judgment lien in
New Jersey state court under Rule 60(b)(3); and
second, under Rule 60(b)(5), that the judgment lien had
been satisfied through McLaughlin’s employer’s
continued contributions to the Plan.
The District Court held that McLaughlin was not
entitled to relief under Rule 60(b)(3) because the
docketing of the judgment did not constitute the type of
fraud or misconduct required under the rule and the
motion was well beyond the one-year limitations period
mandated by the federal rules.5 Moreover, because
McLaughlin’s motion was untimely, the District Court
declined to consider relief under Rule 60(b)(5) or to
permit discovery.6 This appeal followed.
II.
We review a district court’s denial of relief under
Federal Rule of Civil Procedure 60(b), with the
exception of those raised under Rule 60(b)(4), under an
abuse of discretion standard.7 Rule 60(b) authorizes
relief from a final judgment on six separate grounds.8
5

Bd. of Trs. of Nat’l Elevator Indus. Health Benefit Plan v
McLaughlin, No. 3:12-cv-04322, 2017 WL 6550489, *2–3 (D.N.J.
Dec. 20, 2017).
6

Id. at *3.

7

Budget Blinds, Inc. v. White, 536 F.3d 244, 251 (3d Cir. 2008).

8

In re Bressman, 874 F.3d 142, 148 (3d Cir. 2017).

App. 5
All motions made under Rule 60(b) must be made
within a reasonable time of the entry of the order or
judgment.9 Those made under subsection (b)(3) “must
be brought within one year of the entry of a final
judgment. An appeal does not toll this time period.”10
McLaughlin waited 11 months after we affirmed the
judgment lien and 23 months after the actual entry of
the judgment lien to file for relief from the District
Court’s order. He first attempts to argue that his
challenge is nevertheless timely by arguing that the
docketing with the New Jersey Superior Court is the
appropriate “proceeding” at issue. However, as the
District Court explained in its well-reasoned and
thorough opinion, the docketing itself is not a
proceeding, nor is it the actual final judgment, order, or
proceeding from which McLaughlin seeks relief.
McLaughlin also attempts to argue that the one-year
clock should not have begun ticking until we decided
McLaughlin II. The argument is futile because an
appeal does not toll this time period. Accordingly, relief
under Rule 60(b)(3) is time barred.
III.
Alternatively, McLaughlin argues that he is entitled
to relief because the judgment lien is satisfied. Where
the judgment at issue “has been satisfied, released, or

9

Fed. R. Civ. P. 60(c)(1).

10

Moolenaar v. Gov’t of V.I., 822 F.2d 1342, 1346 n. 5 (3d Cir.
1987); see In re Bressman, 874 F.3d at 149 (noting that motions
based on fraud or misconduct are subject to a one-year cap or
period of limitations).

App. 6
discharged,” the federal rules call for relief.11 Unlike
Rule 60(b)(3), Rule 60(b)(5) is not subject to a one-year
limitations period. However, a motion filed under Rule
60(b)(5) must nevertheless be filed in a reasonably
timely manner.12
As noted above, McLaughlin did not pursue relief
until 11 months after we affirmed the judgment lien
and 23 months after the actual entry of the lien.
Because we agree the motion was not filed in a
reasonably timely manner, we conclude that the
District Court did not abuse its discretion in refusing
to consider relief under Rule 60(b)(5) or to permit
discovery.
IV.
Accordingly, we will affirm the District Court’s wellreasoned order denying relief under Rule 60 and
preventing discovery substantially for the reasons
explained by the District Court in its December 20,
2017 opinion.

11

Fed. R. Civ. P. 60(b)(5).

12

See Fed. R. Civ. P. 60(c)(1).

App. 7

APPENDIX B
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civ. No. 12-4322
[Filed December 20, 2017]
___________________________________
BOARD OF TRUSTEES OF THE
)
NATIONAL ELEVATOR INDUSTRY )
HEALTH BENEFIT PLAN,
)
)
Plaintiff,
)
)
v.
)
)
BERNARD MCLAUGHLIN,
)
)
Defendant.
)
___________________________________ )
OPINION
THOMPSON, U.S.D.J.
INTRODUCTION
This matter is before the Court upon the Motion for
Relief from a Judgment by Defendant Bernard
McLaughlin (“Defendant”). (ECF No. 48.) Plaintiff
Board of Trustees of the National Elevator Industry
Health Benefit Plan (“Plaintiff’) opposes. (ECF No. 49.)

App. 8
The Court has decided the Motion based on the written
submissions of the parties and without oral argument
pursuant to Local Civil Rule 78.1(b). For the reasons
stated herein, Defendant’s Motion is denied.
BACKGROUND
Defendant is a participant in Plaintiff’s National
Elevator Industry Health Benefit Plan (“the Plan”), a
self-funded ERISA-governed welfare benefit plan. (Op.
at 1, ECF No. 42.) Defendant was injured in an
accident in January 2009, causing the Plan to advance
$47,590.24 in medical benefits on his behalf. (Id.)
Defendant filed personal injury claims related to the
accident and received a settlement. (Id.) The Plan filed
a lawsuit in July 2012 against Defendant, seeking to
recover the money advanced in medical benefits on his
behalf, on the basis that Defendant’s agreement
required him to reimburse the Plan for any advanced
benefits. (Id. at 2; Compl., ECF No. 1.)
The Court awarded summary judgment in
Plaintiff’s favor on January 24, 2014, finding that the
agreement gave rise to an equitable lien by agreement.
(ECF No. 25.) The Third Circuit affirmed. See Bd. of
Trs. of the Nat’l Elevator Indus. Health Benefit Plan v.
McLaughlin, 590 F. App’x 154 (3d Cir. 2014). The
United States Supreme Court denied Defendant’s
petition for certiorari on that decision on February 23,
2015. On December 18, 2015, Plaintiff moved for
judgment as a matter of law, seeking a sum certain lien
against Defendant for the unpaid medical bills, on the
basis of the summary judgment opinion. (ECF No. 31.)
On December 21, 2015, the Court approved the
proposed judgment for a sum of $45,347.89 (ECF No.

App. 9
32), and later that day Defendant moved to vacate the
judgment (ECF No. 33).
While that motion was pending, on January 20,
2016, the Supreme Court issued its opinion in
Montanile v. Bd. of Trs. of the Nat’l Elevator Indus.
Health Benefit Plan, 136 S. Ct. 651 (2016). (Op. at 3,
ECF No. 42.) Montanile held that a plan fiduciary may
not enforce a lien against general assets because it is
not “appropriate equitable relief” under ERISA
§ 502(a)(3). 136 S. Ct. at 655. Only an equitable lien by
agreement against specifically identified funds that
remain in the defendant’s possession or against
traceable items that the defendant purchased with the
funds is permissible. See id. at 658-59. On February 17,
2016, this Court denied Defendant’s Motion to Vacate
the Court’s December 21, 2015 Judgment, and
Defendant immediately appealed. (ECF Nos. 43, 44.)
The Third Circuit issued its opinion on this appeal
on January 6, 2017, affirming the Court’s denial of the
motion to vacate on the grounds that the intervening
law of Montanile did not justify relief from judgment
under Federal Rule of Civil Procedure 60(b)(6). Bd. of
Trs. of the Nat’l Elevator Indus. Health Benefit Plan v.
McLaughlin, 674 F. App’x 189, 192 (3d Cir. 2017). The
Third Circuit also affirmed on the basis of Plaintiff’s
argument that the order was simply the monetization
of a lien that did not contradict ERISA limitations. Id.
The Court received its mandate a month later on
February 6, 2017. (ECF No. 47.)
On August 2, 2017, Plaintiff docketed the Court’s
December 21, 2015 order monetizing the lien in the
Superior Court of New Jersey, Monmouth County.

App. 10
(Notice to Judgment Debtor, Ex. 3, ECF No. 48-3.)
Pursuant to that docketing, Defendant moved to vacate
the order of judgment, also styled as a Motion for Relief
from a Judgment pursuant to Federal Rule of Civil
Procedure 60(b)(3) and Federal Rule of Civil Procedure
60(b)(5). (ECF No. 48.) Plaintiff filed late opposition to
Defendant’s Motion on November 27, 2017 (ECF No.
49), and on that same day, Defendant replied (ECF No.
50). The Court wrote to the parties indicating its intent
to consider Plaintiff’s late-filed brief and granting
Defendant leave to re-file a responsive brief by
December 4, 2017. (ECF No. 51.) Defendant declined to
do so. This Motion is presently before the Court.
LEGAL STANDARD
Rule 60(b) enables a party to seek relief from a final
judgment based on a limited set of six grounds. In re
Bressman, 874 F.3d 142, 148 (3d Cir. 2017); see also
Gonzalez v. Crosby, 545 U.S. 524, 528 (2005). All
motions made under Rule 60(b) must be made within
a reasonable time of the entry of the order, judgment,
or respective proceeding that the motion challenges.
Fed. R. Civ. P. 60(c)(1). Motions under Rule 60(b)(1)-(3)
are subject to an additional requirement that the
motion must be made no more than one year after the
judgment or order at issue is entered or following the
respective proceeding. Id.; see In re Bressman, 874 F.3d
at 149 (noting that motions based on fraud or
misconduct are subject to a one-year cap or period of
limitations); Hibbert v. Bellmawr Park Mut. Housing
Corp., 2016 WL 3900764, at *3 (D.N.J. July 18, 2016)
(finding untimely a Rule 60(b)(3) motion filed one year
and seven months after entry of judgment without any

App. 11
explanation as to why plaintiff filed late). Notably,
“[a]n appeal does not toll this time period.” Lusick v.
Lawrence, 439 F. App’x 97, 99 (3d Cir. 2011) (citing
Moolenaar v. Gov’t of the V.I., 822 F.2d 1342, 1346 n.5
(3d Cir. 1987)).
Rule 60(b) motions are “extraordinary relief which
should be granted only where extraordinary justifying
circumstances are present.” Gochin v. Thomas
Jefferson Univ., 667 F. App’x 365, 366 (3d Cir. 2016)
(per curiam) (quoting Bohus v. Beloff, 950 F.2d 919, 930
(3d Cir. 1991)). It is within the trial court’s sound
discretion to grant or deny a motion to vacate
judgment. See Gochin, 667 F. App’x at 367 (“We review
the denial of a Rule 60(b) motion for abuse of
discretion.”).
DISCUSSION
Defendant seeks relief based on two specific
grounds: first, Plaintiff’s alleged misconduct in filing
the Court’s judgment lien in New Jersey state court
under Rule 60(b)(3), and second, the fact that the
judgment lien has been satisfied through Defendant’s
employer’s continued contributions to the Plan under
Rule 60(b)(5).
I. Relief Under Federal Rule of Civil Procedure
60(b)(3)
First, Defendant argues that Plaintiff committed
misconduct under Rule 60(b)(3) by violating Supreme
Court precedent in Montanile and the Third Circuit’s
decision in this case. Rule 60(b)(3) grants relief for
“fraud . . . misrepresentations, or misconduct by an
opposing party.” Fed. R. Civ. P. 60(b)(3). It is a rigorous

App. 12
standard, Neal Asta Funding, Inc. v. Neal, 2017 WL
3168983, at *1 (D.N.J. July 26, 2017), under which “the
movant must establish that the adverse party engaged
in fraud or other misconduct, and that this conduct
prevented the moving party from fully and fairly
presenting his case,” Stridiron v. Stridiron, 698 F.2d
204, 206 (3d Cir. 1983); see Gochin, 667 F. App’x at 366.
Defendant describes the docketing of this Court’s
December 21, 2015 Order for $45,347.89 in New Jersey
state court as a “misrepresent[ation] to the Clerk of the
Superior Court that it was a money judgment, contrary
to the Third Circuit’s instructions.” (Def.’s Mot. Vacate
at 5-6, ECF No. 48-1.) Specifically, Defendant argues
that by operation of N.J.S.A. 2A:16-11 and 2A:16-18,
which only allow for docketing of an order to pay
money, “[Plaintiff] necessarily had to represent, if only
implicitly, that the lien was a money judgment.” (Def.’s
Mot. Vacate at 8-9.) The Court is not persuaded that
this meets the standard required under Rule 60(b)(3).
It is true that the Supreme Court has held that specific
money judgments are not appropriate or enforceable
under ERISA, and in the appeal of this case, the Third
Circuit held that the Court’s judgment simply
monetized a lien-by-agreement, not a money judgment
that would contradict Montanile. McLaughlin, 614 F.
App’x at 192. Even assuming arguendo that Plaintiff’s
conduct is a misrepresentation of the effect of this
Court’s judgment-lien,1 Defendant Movant has not met
1

The New Jersey statute to which Defendant refers provides:
Every judgment, or order for the payment of money,
entered in the Superior Court, Chancery Division, from the
time of its entry upon the civil judgment and order docket,

App. 13
the high burden required to seek relief from fraud,
misrepresentation, or misconduct under Rule 60(b)(3).
Plaintiff’s docketing of this Order has not in any way
deprived Defendant of the full or fair representation of
his case.
Regardless of whether Defendant’s argument has
merit under Rule 60(b)(3), it is patently untimely.
Defendant has presented this Motion to the Court and
styled it as a prayer for relief from the Court’s
December 21, 2015 Order. (See Def.’s Notice of Mot. at
1, ECF No. 48 (moving for an order “granting relief
from the Judgment executed by the Hon. Anne E.
Thompson, USDJ on December 21, 2015 for being the
subject of misconduct for and pursuant to F.R.Cv.P
60(b)(5) for being satisfied”).) Therefore, Defendant’s
attempt in his reply to define the August 2, 2017
docketing of the order with the Superior Court as the
“proceeding” at issue is inapposite. (Def.’s Reply at 1-2,
ECF No. 50.) While the misconduct alleged is the
docketing in August, that act is not itself a proceeding,
and it is not the actual final judgment, order, or
proceeding from which he seeks relief. The December
and every decree or order for the payment of money, of the
former court of chancery, from the time it was signed, shall
have the force, operation and effect of a judgment of the
Superior Court, Law Division, and execution may issue
thereon as in other cases.
N.J.S.A. 2A:16-18. The other statute Defendant cites, N.J.S.A.
46:2A-2 notes that liens affecting real property are “entitled to
recording.” The Court does not delve into the merits of Defendant’s
claim and the effect of these statutes on the judgment-lien because
Defendant fails to meet the standard required by the Federal
Rules.

App. 14
21, 2015 Order date is dispositive. Notably, the Court’s
Order denying Defendant’s previous motion to vacate
(ECF No. 44) and the Third Circuit’s decision on
Defendant’s appeal (ECF No. 46) are also irrelevant in
analyzing the timeliness of this Motion. See Lusick, 439
F. App’x at 99. This Motion was filed nearly two years
after the Order from which it seeks relief, and is thus
unreasonable and well beyond the one year cap
mandated by the Federal Rules.
II. Federal Rule of Civil Procedure 60(b)(5)
Defendant also argues, in the alternative to relief
under subsection three, that he is entitled to relief
because the judgment lien is satisfied. The Federal
Rules call for relief where the judgment at issue “has
been satisfied, released, or discharged.” Fed. R. Civ. P.
60(b)(5). Under Rule 60(b)(5), district courts may find
a judgment partially satisfied. Savitsky v. Mazzella,
318 F. App’x 131, 133 (3d Cir. 2009) (citing BUC Int’l
Corp. v. Int’l Yacht Council Ltd., 517 F.3d 1271, 127475 (11th Cir. 2008); Kassman v. Am. Univ., 546 F.2d
1029, 1033 (D.C. Cir. 1976) for the proposition that
Rule 60(b)(5) can be treated as a vehicle to seek credit
against a judgment).
Defendant claims that money has been continuously
contributed to the Plan by his employers, at a rate of
$15.00 per hour from 2014 to 2017 and amounting to
nearly $150,000, but he has not received any benefit for
said contributions. (Def.’s Mot. Vacate at 6, 10-11.) On
this basis, he argues that Plaintiff has received a
significant windfall—three times the lien in this case—
because it has received contributions without incurring
any of the expenses of offering medical benefits

App. 15
pursuant to the Plan. Thus, the judgment was already
satisfied. In response, Plaintiff acknowledges that
“[t]he terms of the NEI Plan provide that the Plan may
set- off medical benefits that would otherwise be
payable on behalf of McLaughlin and his dependents
until the Plan has been fully reimbursed for the
benefits advanced to McLaughlin for [his] accident.”
(Pl.’s Opp’n to Def.’s Mot. Vacate at 5-6, ECF No. 49-1.)
Plaintiff clarifies that while it has continued to receive
contributions to the Plan from Defendant’s employers
to date, it is incurring risk and providing the benefits
for said contributions (id. at 6), leaving no additional
money to apply as a set-off. Neither party submitted
documentary evidence of contributions made not
benefits rendered to support or refute this argument.
Even Defendant notes that discovery is warranted for
the Court to find any alleged contributions attributable
to the existing obligation as a set-off. (See Def.’s Mot.
Vacate at 12.) Without such evidence, the Court cannot
grant relief and vacate the judgment for satisfaction, in
whole or in part.
The Court, however, will not grant leave for
discovery on this issue because Defendant’s motion is
untimely. Although a motion with respect to Rule
60(b)(5) is not subject to the one year cap, the motion
itself should still be filed in a reasonably timely
manner. See Fed. R. Civ. P. 60(c)(1). Where Defendant
alleges that the judgment has been satisfied nearly
three times over, resulting in a windfall and unjust
enrichment, Defendant could have advanced this
argument for relief much sooner than now: eleven
months after the Third Circuit affirmed the judgment
lien and 23 months after the actual entry of the

App. 16
judgment lien. (See Def.’s Reply at 4 (noting that any
money owed to the Plan was “satisfied long ago”).)
Therefore, the Court declines to consider relief under
Rule 60(b)(5) or permit discovery to reach such a
conclusion.
CONCLUSION
For the foregoing reasons, Defendant’s Motion to
Vacate is denied. An appropriate order will follow.
Date: 12-20-17

/s/Anne E. Thompson
ANNE E. THOMPSON, U.S.D.J.

App. 17
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civ. No. 12-4322
[Filed December 20, 2017]
___________________________________
BOARD OF TRUSTEES OF THE
)
NATIONAL ELEVATOR INDUSTRY )
HEALTH BENEFIT PLAN,
)
)
Plaintiff,
)
)
v.
)
)
BERNARD MCLAUGHLIN,
)
)
Defendant.
)
___________________________________ )
ORDER
THOMPSON, U.S.D.J.
For the reasons set forth in this Court’s Opinion on
this same day,
IT IS on this 20th day of December, 2017,
ORDERED that Defendant Bernard McLaughlin’s
Motion for Relief from a Judgment (ECF No. 48) is
DENIED.
/s/Anne E. Thompson
ANNE E. THOMPSON, U.S.D.J.

App. 18

APPENDIX C
SUPERIOR COURT OF NEW JERSEY
GLENN A. GRANT, J.A.D.
ACTING ADMINISTRATIVE
DIRECTOR OF THE COURTS
MICHELLE M. SMITH, ESQ.
CLERK OF SUPERIOR
COURT

RICHARD J. HUGHES
JUSTICE COMPLEX
P.O. BOX 971
TRENTON, NEW
JERSEY 08625-0971
(609) 421-6100

NOTICE TO JUDGMENT DEBTOR
TO:

Bernard McLaughlin
6 Fredwood Place
Matawan, NJ 07747
Judgment No. DJ-128370-17

You are hereby notified that a judgment entered in the
United States District Court for the District of New
Jersey Trenton Division, has been recorded in the state
of New Jersey under the Uniform Enforcement of
Foreign Judgment Act on August 2, 2017.
The name and address of the judgment creditor(s) and
creditor’s attorney (if applicable) is as follows:
Creditors Name: Board of Trustees of the National
Elevator Industry Health Benefit Plan
Creditors Address: 19 Campus Blvd., Ste. 200,
Newtown Square, PA 19073

App. 19
Creditors Attorney: Kolb, Clare & Arnold
Rachael B. Banks, Esq.

Attn:

Attorney Address: 35 Journal Square, Ste. 419, Jersey
City, NJ 07306 201-253-1968
Please be advised that a Writ of Execution or other
process for enforcement of the judgment may issue 14
days after the date of entry. Any objection to the entry
of the judgment should proceed by Motion filed with
the Superior Court of New Jersey, Monmouth County.
For information on filing the Motion contact the direct
filing office in the county of venue.
Any questions concerning the judgment should be
directed to the Customer Call Center of the Superior
Court Clerk’s Office at (609) 421-6100.
Michelle M. Smith, Esq.
Clerk of Superior Court
By:KM
Sent by Regular Mail

***
Judgment Search Result Details
[Fold-Out Exhibit, see next page]

App. 20

APPENDIX D
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 16-4108
[Filed April 11, 2017]
___________________________________
BERNARD McLAUGHLIN;
)
J.J.M., a minor through his guardian )
ad litem REGINA McLAUGHLIN,
)
Appellants
)
)
v.
)
)
BOARD OF TRUSTEES OF
)
THE NATIONAL ELEVATOR
)
INDUSTRY HEALTH
)
BENEFIT PLAN
)
___________________________________ )
On Appeal from the United States District Court
for the District of New Jersey
(No. 3-16-cv-03121)
District Judge: Honorable Anne E. Thompson
Submitted Pursuant to Third Circuit L.A.R. 34.1(a)
April 3, 2017
Before: CHAGARES, SCIRICA, and FISHER,
Circuit Judges.

App. 21
(Opinion Filed: April 11, 2017)
____________
OPINION*
____________
CHAGARES, Circuit Judge.
Plaintiffs Bernard McLaughlin (“McLaughlin”) and
J.J.M., his minor son proceeding through guardian ad
litem Regina McLaughlin, brought this action against
the Trustees of the National Elevator Industry Health
Benefit Plan (“the Plan”). The Plan moved for
dismissal, arguing that McLaughlin and J.J.M.’s claims
were barred by claim preclusion or res judicata. The
District Court dismissed, and McLaughlin and J.J.M.
appealed. For the following reasons, we will affirm.
I.
We write solely for the parties and therefore recite
only the facts necessary to our disposition. The Board
of Trustees is the administrator of the Plan, a selffunded welfare benefit plan governed by the Employee
Retirement Income Security Act of 1974 (“ERISA”).
McLaughlin is a participant in the plan. J.J.M is a
qualified eligible dependent and a plan beneficiary.
Bernard McLaughlin was injured in an all-terrain
vehicle accident in January 2009. The Plan paid a
portion of McLaughlin’s medical bills resulting from
the accident. McLaughlin asserted a third-party
liability claim and, in December 2011, that case settled.

*

This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

App. 22
The Plan then asserted a lien against the settlement
proceeds to obtain reimbursement for the benefits
previously advanced on McLaughlin’s behalf.
McLaughlin refused to reimburse the Plan.
The Plan filed suit against McLaughlin in July 2012
to recover the funds previously advanced (hereinafter
“McLaughlin I”). While that suit was pending and since
some time in 2013, the Plan has asserted a “set-off”
against the money it claims McLaughlin owes it, thus
refusing to pay unrelated medical expenses incurred by
McLaughlin and J.J.M. Appendix (“App.”) 21a. After
implementing the set-off, the Plan moved for summary
judgment. McLaughlin counterclaimed seeking a
declaration that the set-off was legally prohibited and
that the Plan was not entitled to withhold payment of
benefits to McLaughlin or his family. App. 22a. In
January 2014, the District Court granted summary
judgment in favor of the Plan and denied summary
judgment on McLaughlin’s counterclaim. The District
Court concluded that the language of the Plan gave rise
to an equitable lien by agreement but did not
adjudicate the amount of the lien. We affirmed this
determination in October 2014. Bd. of Trs. of the Nat’l
Elevator Indus. Health Benefit Plan v. McLaughlin,
590 F. App’x 154 (3d Cir. 2014).
The Plan returned to the District Court in
December 2015 and filed suit against McLaughlin to
monetize the lien into a sum certain (hereinafter
“McLaughlin II”). The District Court entered judgment
in the amount of $45,347.89. App. 43a. McLaughlin
moved to vacate the judgment under Federal Rule of
Civil Procedure 60. The District Court denied

App. 23
McLaughlin’s motion to vacate. App. 49a. McLaughlin
appealed, and we affirmed. Nat’l Elevator Indus.
Health Benefit Plan Bd. of Trs. v. McLaughlin, No. 161352, 2017 WL 66585, at *1 (3d Cir. Jan. 6, 2017).
McLaughlin and J.J.M. filed the instant lawsuit
against the Plan in June 2016 (hereinafter
“McLaughlin III”). McLaughlin sought a declaration
that the Plan’s “set-off” is legally impermissible and
that the Plan is required to reimburse McLaughlin and
J.J.M. for all withheld medical expenses. App. 23a. The
Plan moved to dismiss on res judicata grounds.
McLaughlin and J.J.M. opposed the motion and crossmoved for partial summary judgment. The District
Court granted the Plan’s motion to dismiss, and denied
the cross-motion for summary judgment. This timely
appeal followed.
III.
The District Court had jurisdiction under 29 U.S.C.
§ 1132, and we have appellate jurisdiction under 28
U.S.C. § 1291. Our review of the District Court’s
dismissal under Rule 12(b)(6) is plenary. Fowler v.
UPMC Shadyside, 578 F.3d 203, 206 (3d Cir. 2009).
Dismissal for failure to state a claim is appropriate
when it is obvious, either from the face of the pleading
or from other court records, that an affirmative defense
such as res judicata will necessarily defeat the claim.
See Jones v. Bock, 549 U.S. 199, 215 (2007).
III.
The principal issue on appeal is whether the
doctrine of res judicata bars McLaughlin and J.J.M.’s
instant claims. McLaughlin and J.J.M. maintain that

App. 24
res judicata does not apply because J.J.M. was neither
party to, nor in privity with, any party to the prior
litigation. McLaughlin and J.J.M. also argue that the
District Court’s December 2015 Order of Judgment
constituted a “continuing course of conduct” barring the
application of res judicata in this case. We have
considered McLaughlin and J.J.M.’s arguments, and
for the following reasons, we will affirm the District
Court’s determination.
A.
Res judicata, also known as claim preclusion, bars
a party from initiating a second suit against the same
adversary based on the same “cause of action” as the
first suit.1 See In re Mullarkey, 536 F.3d 215, 225 (3d
Cir. 2008). A party seeking to invoke res judicata must
establish three elements: (1) a final judgment on the
merits in a prior suit involving (2) the same parties or
their privies, and (3) a subsequent suit based on the
same cause of action. Id. “The doctrine of res judicata
bars not only claims that were brought in a previous
action, but also claims that could have been brought.”
Id. For the following reasons, the District Court
correctly concluded that each of the three res judicata
elements is present here.
First, the District Court’s grant of summary
judgment in favor of the Plan in McLaughlin I

1

Because this case involves the preclusive effect of a prior federal
court determination, we apply federal law principles of collateral
estoppel. See Doe v. Hesketh, 828 F.3d 159, 171 (3d Cir. 2016)
(citing Paramount Aviation Corp. v. Agusta, 178 F.3d 132, 145 (3d
Cir. 1999)).

App. 25
constitutes a final judgment on the merits for the
purposes of res judicata. See Hubicki v. ACF Indus.,
Inc., 484 F.2d 519, 524 (3d Cir. 1973). That McLaughlin
II, a separate matter, was then pending does not alter
this conclusion. Cf. Robi v. Five Platters, Inc., 838 F.2d
318, 327 (9th Cir. 1988) (noting that pendency of an
appeal does not bar preclusion); Cohen v. Superior Oil
Corp., 90 F.2d 810, 812 (3d Cir. 1937) (same).
We next address whether the parties to the instant
suit were party to, or in privity with, a party to the
prior suit. There is no dispute here that McLaughlin
was a party in the original litigation. The only relevant
question is therefore whether the District Court
properly concluded that J.J.M. was in privity with
McLaughlin.
Privity “requires a prior legal or representative
relationship between a party to the prior action and the
nonparty against whom estoppel is asserted.”
Nationwide Mut. Fire Ins. Co. v. George V. Hamilton,
Inc., 571 F.3d 299, 312 (3d Cir. 2009). The Supreme
Court has recognized six traditional categories where
nonparty preclusion may be appropriate, including
where there is a pre-existing “substantive legal
relationship” between the person to be bound and a
party to the prior judgment. Id. (citing Taylor v.
Sturgell, 553 U.S. 880, 893–95 (2008)). A “substantive
legal relationship” as contemplated by the Taylor Court
principally refers to one in which “the parties to the
first suit are somehow accountable to nonparties who
file a subsequent suit raising identical issues.” Pelt v.
Utah, 539 F.3d 1271, 1290 (10th Cir. 2008).

App. 26
The District Court concluded here that J.J.M. and
McLaughlin maintained a “substantive legal
relationship” because J.J.M.’s eligibility for benefits
and legal claims were “wholly derivative” of
McLaughlin’s rights and obligations under the Plan.
App. 11a-12a. This emphasis on the dependency of the
claims is understandable given the abundance of
authority — especially prior to the Supreme Court’s
decision in Taylor — addressing derivative claims in
the context of non-party preclusion generally.2
Nonetheless, we feel compelled to clarify that the mere
existence of a derivative claim does not automatically
permit the application of the “substantive legal
relationship” exception. Rather, the inquiry “turns on
the relationship between the parties and not on the
alignment of the types of damages available under the
theories of recovery asserted in each proceeding.”
Baloco v. Drummond Co., 767 F.3d 1229, 1251 n.31
(11th Cir. 2014) (emphasis added). Application of the
exception is thus reserved for a variety of “fiduciary,

2

There is robust authority relating to non-party preclusion in this
context. See, e.g., 18A Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure Jurisdiction §§ 4454 (2d ed. 2002)
(noting that res judicata is appropriate when “derivative claims
held by members of the same family” are brought); see also
Vasquez v. Bridgestone/Firestone, Inc., 325 F.3d 665, 677 (5th Cir.
2003) (“Privity exists where, for example, a party’s claim is
derivative of the original party’s claim.”); Ferris v. Cuevas, 118
F.3d 122, 131 (2d Cir. 1997) (applying non-party preclusion
because the plaintiffs’ rights in the subsequent action were
“conditioned . . . on” the plaintiffs’ rights in the prior action);
Terrell v. DeConna, 877 F.2d 1267, 1271 (5th Cir. 1989)
(permitting a twice-sued defendant to raise preclusion defenses in
the subsequent suit by a spouse raising legally derivative claims).

App. 27
contractual or property relationship[s] between current
and prior litigants,” Pelt, 539 F.3d at 1290, including,
but not limited to, “preceding and succeeding owners of
property, bailee and bailor, and assignee and assignor,”
Taylor, 553 U.S. at 894.
With this caveat in mind, we agree generally with
the District Court that the facts of this case trigger the
exception here. Like those relationships traditionally
qualifying for the exception, the relationship of a
participant and eligible dependent is born of and
encompassed within contract, namely the Plan
documents.3 See Nationwide Mut. Fire Ins. Co., 571
F.3d at 310–11 (“[P]rivity has traditionally been

3

“ERISA’s framework ensures that employee benefit plans be
governed by written documents and summary plan descriptions,
which are the statutorily established means of informing
participants and beneficiaries of the terms of their plan and its
benefits.” In re Unisys Corp. Retiree Med. Benefit, 58 F.3d 896,
902 (3d Cir. 1995). Although statements in a summary plan
“provide communication with beneficiaries about the plan . . .
[they] do not themselves constitute the terms of the plan.” Cigna
Corp. v. Amara, 563 U.S. 421, 438 (2011). Nonetheless, the District
Court and the Plan have cited to the language in the Summary
Plan Description (“SPD”) as the language of the Plan. We, too,
adopt this approach. See US Airways, Inc. v. McCutchen, 133 S.
Ct. 1537, 1543 n.1 (2013) (“Because everyone in this case has
treated the language from the summary description as though it
came from the plan, we do so as well.”). Moreover, insofar as
McLaughlin and J.J.M. now contend that the SPD was not
“designated a plan document” and so cannot control here,
McLaughlin Reply Br. 1, we deem this argument forfeited because
it is raised solely in the reply brief. See Laborers’ Int’l Union of N.
Am. v. Foster Wheeler Corp., 26 F.3d 375, 398 (3d Cir. 1994)
(holding that an argument is not preserved “unless a party raises
it in its opening brief”).

App. 28
understood as referring to the existence of a
substantive legal relationship, such as by contract,
from which it was deemed appropriate to bind one of
the contracting parties to the results of the other
party’s participation in litigation.” (emphasis added)).
Moreover, McLaughlin and J.J.M. are indeed
“accountable” to each other, Pelt, 539 F.3d at 1290,
through the explicit terms of the benefits plan, which
permit deduction from either for any funds owed to the
Plan. See App. 37a (recognizing that the Plan may
deduct amounts owed by a participant “from future
benefits to which the covered person or an immediate
covered family member may otherwise be entitled until
the amount due the Plan has been satisfied” (emphasis
added)). Their relationship here is thus distinct from
that of “mere self-appointed volunteers without
authority to bind any other beneficiaries by litigation.”
Pelt, 539 F.3d at 1291. To the contrary, McLaughlin
and J.J.M. are in privity precisely because, by virtue of
their preexisting legal relationship, the judgment in
McLaughlin I necessarily extinguished any claim
J.J.M. may have as to the legal permissibility of the
set-off. The District Court therefore did not err in
concluding that J.J.M. was in privity with
McLaughlin.4
4

We have considered McLaughlin’s and J.J.M.’s arguments to the
contrary and consider them lacking in merit. McLaughlin and
J.J.M. argue, for instance, that J.J.M.’s interests are “distinct from
his father’s because the Plan was required to pay [J.J.M.’s] medical
benefits independently of his father’s.” McLaughlin Br. 7. This
contention is contradicted by the clear terms of the Plan, however,
which permit deduction of funds owed from any plan participant
or eligible dependent. App. 37a. McLaughlin and J.J.M. also argue
that “the interests of the father and son were not squarely

App. 29
Third, there is an identity of claims between the
prior and subsequent suits. In determining whether
there is an identity of claims, “we take a broad view,
looking to whether there is an ‘essential similarity of
the underlying events giving rise to the various legal
claims.’” CoreStates Bank, N.A. v. Huls Am., Inc., 176
F.3d 187, 194 (3d Cir. 1999) (quoting United States v.
Athlone Indus., Inc., 746 F.2d 977, 984 (3d Cir. 1984)).
It is not “dispositive that [a party] asserts a different
theory of recovery or seeks different relief in the two
actions.” Athlone Indus., Inc., 746 F.2d at 984. Rather,
we look to see “whether the acts complained of were the
same, whether the material facts alleged in each suit
were the same, and whether the witnesses and
documentation required to prove such allegations were
the same.” Lubrizol Corp. v. Exxon Corp., 929 F.2d 960,
963 (3d Cir. 1991).
Here, the act complained of — that the Plan
breached its fiduciary duty by offsetting benefits
otherwise payable to McLaughlin and his family
members — was alleged in both the prior and
subsequent cases. McLaughlin and J.J.M. concede as
much by acknowledging that “the plaintiffs asserted a
Counterclaim [in McLaughlin I] seeking relief similar
to that requested in the within Complaint.” App. 22a.
Moreover, the factual allegations required proof

aligned.” McLaughlin Br. 10. That precisely the same relief is
sought in both the prior and subsequent litigations undermines
this argument. See Baloco, 767 F.3d at 1251 n.32 (affirming res
judicata determination in part because, as between the parties and
their privies, the “interests in litigating this issue were perfectly
aligned”).

App. 30
through the same witnesses and documentation. We
thus conclude that there was an identity of claims in
this case.
In sum, because each of the three elements of the
res judicata analysis is present, the District Court did
not err in dismissing on claim preclusion grounds.
B.
McLaughlin and J.J.M. maintain that the judgment
in McLaughlin I does not have preclusive effect because
the “continuing course of conduct” exception bars
application of res judicata. For the following reasons,
we do not agree.
The “continuing course of conduct” exception
recognizes that “when significant new facts grow out of
a continuing course of conduct the issues in a
successive suit may fail to constitute the same ‘issue’ so
as to merit preclusive effect.” Hawksbill Sea Turtle v.
Fed. Emergency Mgmt. Agency, 126 F.3d 461, 477 (3d
Cir. 1997); see also Labelle Processing Co. v. Swarrow,
72 F.3d 308, 313–14 (3d Cir. 1995). We have thus held
that res judicata does not “bar claims arising
subsequent to the entry of judgment and which did not
then exist or could not have been sued upon in the prior
action.” Alexander & Alexander, Inc. v. Van Impe, 787
F.2d 163, 166 (3d Cir. 1986).
The exception invoked here is inapplicable.
McLaughlin, through his counterclaim in the first case,
sought precisely the same relief that he now seeks with
J.J.M. Moreover, McLaughlin and J.J.M. have failed to
identify any new facts giving rise to a new claim. To the
contrary, any alleged injuries relating to the Plan’s set-

App. 31
off practice were present before McLaughlin filed his
counterclaim in McLaughlin I. McLaughlin and
J.J.M.’s claims in the instant action therefore arose
before the final judgment in McLaughin I issued and
“could . . . have been sued upon in the prior action.”
Van Impe, 787 F.2d at 166. The “continuing course of
conduct” exception thus does not apply here.
IV.
For the foregoing reasons, we will affirm the
District Court’s order dismissing the case.

App. 32

APPENDIX E
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 16-1352
[Filed January 6, 2017]
________________________________
NATIONAL ELEVATOR
)
INDUSTRY HEALTH BENEFIT )
PLAN BOARD OF TRUSTEES
)
)
v.
)
)
BERNARD MCLAUGHLIN,
)
Appellant )
________________________________ )
On Appeal from the United States District Court
for the District of New Jersey
(District Case No. 3-12-cv-04322)
District Judge: Honorable Anne E. Thompson
________________
Argued September, 21 2016

App. 33
Before: McKEE*, HARDIMAN, and
RENDELL, Circuit Judges
(Opinion filed: January 6, 2017)
Steven L. Kessel
(Argued)
Drazin & Warshaw
25 Reckless Place
P.O. Box 8909
Red Bank, NJ 07701
Counsel for Appellant
John D. Kolb
(Argued)
Gibson & Sharps
9420 Bunsen Parkway
Suite 250
Louisville, KY 40223
Counsel for Appellee
______________
O P I N I O N*
______________
RENDELL, Circuit Judge:
Bernard McLaughlin appeals from the District
Court’s order entering Judgment against him in the
amount of $45,347.89 in an action commenced by the
*

Judge McKee was Chief Judge at the time this appeal was
submitted. Judge McKee completed his term as Chief Judge on
September 30, 2016.

*

This disposition is not an opinion of the full Court and pursuant
to I.O.P. 5.7 does not constitute binding precedent.

App. 34
National Elevator Industry Health Benefit Plan Board
of Trustees (“the Plan”). We will affirm.
McLaughlin was injured in an all-terrain vehicle
accident in January 2009. The Plan extended him
approximately $47,590.24 in benefits for his medical
treatment costs. McLaughlin also filed a claim against
a third party and subsequently recovered monies by
way of settlement. He did not assert medical expenses
as part of the claim against the third party. The Plan
then sought reimbursement from McLaughlin from the
settlement proceeds according to the following Plan
provision:
The Plan has a right to first reimbursement out
of any recovery. Acceptance of benefits from the
Plan for an injury or illness by a covered person,
without any further action by the Plan and/or
the covered person, constitutes an agreement
that any amounts recovered from another party
by award, judgment, settlement or otherwise,
and regardless of how the proceeds are
characterized, will promptly be applied first to
reimburse the Plan in full for benefits advanced
by the Plan due to the injury or illness.
A19a.
The Plan subsequently brought suit in the United
State District Court for the District of New Jersey and
sought “the imposition of a constructive trust and/or
equitable lien over identifiable funds in the possession
and/or control of [McLaughlin]. No money damages
[were] sought . . . .” Complaint at 2, ¶4. McLaughlin
urged that he was not obligated to reimburse the Plan

App. 35
because he had not recovered money for medical bills in
the settlement. The District Judge granted summary
judgment for the Plan on January 24, 2014 and opined
that “[s]ince the Plan’s language is clear and the
agreement controls, Defendant must reimburse [the
Plan] from the Settlement.” Bd. of Trs. of Nat’l Elevator
Indus. Health Benefit Plan v. McLaughlin, No. 12-4322,
2014 WL 284431, at *4 (D.N.J. Jan. 24, 2014).1
Thereafter, in December 2015, the Plan sent a letter
to the District Judge noting, “We now wish to file a lien
against the Defendant for the unpaid medical lien;
however the order and judgment from the District
Court granting summary judgment in favor of [the
Plan] does not mention a sum certain.” A26a. It then
goes on to state that the “current claim amount is
$45,347.89.” A26a. It also noted that it advised
McLaughlin’s counsel of the current amount by letter
dated October 8, 2015 and had not received any
objection. A26a, A61a. On December 21, 2015, the
District Court ordered that judgment in that amount
be entered in favor of the Plan.
McLaughlin now makes several arguments in this
appeal, but principally challenges the District Court’s
entry of a “new order for judgment” under Rule 60,
McLaughlin Br. 6, notwithstanding the previous “final
order” of the District Court. He also urges that ERISA
does not authorize entry of a money judgment. Our

1

McLaughlin appealed from this order, and we affirmed in a nonprecedential opinion. See Bd. of Trs. of the Nat’l Elevator Indus.
Health Benefit Plan v. McLaughlin, 590 F. App’x 154 (3d Cir.
2014), cert. denied, 135 S. Ct. 1405 (2015).

App. 36
analysis depends in part on how we should characterize
what occurred in the District Court and in part on the
state of the law at the time judgment was entered.
It should be noted that McLaughlin originally
argued in the District Court that since the funds he
received had been dissipated, i.e., spent by him, there
could be no enforceable lien. The District Court rejected
that argument based on our opinion in Funk v. Cigna,
648 F.3d 182 (3d Cir. 2011), in which we held that a
lien-by-agreement can be enforced notwithstanding the
dissipation of the specific fund to which the lien
attached. See Bd. of Trs. of Nat’l Elevator Indus. Health
Benefit Plan, 2014 WL 284431, at *2 n.2. McLaughlin
did not appeal that aspect of the original ruling in the
District Court in his earlier appeal. We note that Funk
was clearly controlling at that time.
Here, we must decide what the District Court was
doing when it entered judgment in the amount of
$45,347.89 on December 21, 2015. McLaughlin asserts
that it was entering a personal judgment that is not a
valid “equitable remedy” authorized by ERISA. The
Plan, on the other hand, contends that the District
Court had granted equitable relief as requested in its
complaint and thus was simply monetizing the amount
of the current lien claim.
We think the Plan has the better argument. While
it would seem that such a money judgment would
originally be deemed a legal judgment prohibited by
ERISA, the District Court was acting pursuant to our
opinion in Funk which permitted it to enforce a lien-byagreement against property other than the res to which
the lien attached. It follows logically that the District

App. 37
Court needed to indicate the amount of the lien in
order to do so. That, together with the underlying
equitable relief requested by the Plan, causes us to
view the judgment at issue here as one that merely
monetizes the lien and does not run afoul of ERISA.
The parties acknowledge that our ruling in Funk
has been abrogated by the Supreme Court’s opinion in
Montanile v. Bd. of Trs. of Nat’l Elevator Indus. Health
Benefit Plan, 136 S. Ct. 651 (2016), which clarified that
in order to be equitable, the lien must attach to a
specific fund, and if that specific fund is dissipated,
relief against the debtor is no longer equitable.
McLaughlin asked the District Court to vacate its order
under Rule 60(b) and apply Montanile, and on appeal
before us he contends the District Court erred in
refusing to do so. We reject this argument and will
affirm on this issue as well. “[I]ntervening changes in
the law rarely justify relief from a final judgment.” Cox
v. Horn, 757 F.3d 113, 121 (3d Cir. 2014). Moreover,
McLaughlin has not presented the extraordinary
circumstances that would warrant such relief.
Accordingly, we will affirm the District Court’s
order.

App. 38

APPENDIX F
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civ. No. 16-3121
[Filed October 13, 2016]
________________________________
BERNARD MCLAUGHLIN AND )
JAMES JOSEPH MCLAUGHLIN, )
a minor, through his g/a/l
)
REGINA MCLAUGHLIN,
)
)
Plaintiffs,
)
)
v.
)
)
BOARD OF TRUSTEES OF
)
THE NATIONAL ELEVATOR
)
INDUSTRY HEALTH
)
BENEFIT PLAN,
)
)
Defendant.
)
________________________________ )
OPINION
THOMPSON, U.S.D.J.

App. 39
INTRODUCTION
This matter is before the Court upon the motion to
dismiss brought by Defendant Board of Trustees of the
National Elevator Industry Health Benefit Plan
(“Defendant”). (ECF No. 6). Plaintiffs Bernard
McLaughlin and James Joseph McLaughlin, a minor,
through his guardian ad litem Regina McLaughlin
(“Plaintiffs”), oppose the motion and cross-move for
summary judgment. (ECF No. 8). The Court has
decided the motions based on the written submissions
of the parties and without oral argument pursuant to
Local Civil Rule 78.1(b). For the reasons stated herein,
Defendant’s motion will be granted and Plaintiff’s
cross-motion will be denied.
BACKGROUND
Plaintiff Bernard McLaughlin is a participant in
Defendant’s National Elevator Industry Health Benefit
Plan (“the Plan”), a self-funded ERISA-governed
welfare benefit plan. (Pls.’ Statement of Material Facts
Not in Dispute, ECF No. 8-2 at ¶¶ 1-2). Plaintiff James
McLaughlin is Bernard McLaughlin’s son and an
eligible dependent who is covered under the terms of
the plan. (Id. at ¶ 3). In January 2009, Bernard
McLaughlin was injured in an accident. (Id. at ¶ 4).
Defendant thereafter paid a portion of Bernard
McLaughlin’s medical bills arising from treatment for
the injuries he sustained in that accident. (Id. at ¶ 5).
Defendant filed personal injury claims related to the
accident against a third party, and in December 2011,
Bernard McLaughlin received a settlement. (Id. at ¶ 4).
Defendant asserted a lien against Bernard
McLaughlin’s settlement proceeds. Defendant claimed

App. 40
that, in the event of a third-party settlement, Bernard
McLaughlin’s agreement with Defendant required him
to reimburse Defendant for any benefits advanced on
his behalf. (Pls.’ Compl. At 2). However, Bernard
McLaughlin did not reimburse Defendant for the
benefits it had expended. (Pls.’ Statement of Material
Facts Not in Dispute at ¶ 4). Since some time in 2013,
Defendant has asserted a “set-off” against the money it
claims Bernard McLaughlin owes to it by refusing to
pay medical expenses incurred by Plaintiffs. (Pls.’
Compl. At ¶ 10).
Defendant first filed suit against Plaintiff Bernard
McLaughlin in July 2012 to recover the funds advanced
on his behalf. The parties filed cross-motions for
summary judgment, and on January 24, 2014, the
Court granted summary judgment to Defendant. (See
Bd. of Tr. of the Nat’l. Elevator Indus. Health Benefit
Plan v. McLaughlin, 12-4322, Opinion, ECF No. 25)
(“McLaughlin I”). The Court concluded that Defendant
successfully established that the language of the Plan
gave rise to an equitable lien by agreement, recognized
by the Supreme Court as an equitable remedy under
ERISA § 502(a)(3). Id. Plaintiff Bernard McLaughlin
counterclaimed for summary judgment asserting that
he was entitled to a declaration that the Plan is not
entitled to withhold payment of benefits to Bernard
McLaughlin or his family. The Court denied Plaintiff
Bernard McLaughlin’s counterclaim. Id.
Plaintiff Bernard McLaughlin appealed, and on
October 1, 2014, the Third Circuit affirmed the Court’s
grant of summary judgment to Defendant. (See Bd. of
Tr. of the Nat’l. Elevator Indus. Health Benefit Plan v.

App. 41
McLaughlin, 590 F. App’x 154 (3d Cir. 2014). Plaintiff
Bernard McLaughlin petitioned for certiorari to the
United States Supreme Court, but the Supreme Court
denied the petition on February 23, 2015. Defendant
returned to this Court on December 18, 2015, and filed
a lien against Plaintiff Bernard McLaughlin for the
unpaid medical bills because the prior order and
judgment from the Court granting summary judgment
did not mention a sum certain. The Court approved the
proposed judgment for a sum of $45,347.89 on
December 21, 2015. (Bd. of Tr. of the Nat’l. Elevator
Indus. Health Benefit Plan v. McLaughlin, 12-4322,
Judgment, ECF No. 32).
Plaintiff Bernard McLaughlin then filed a Motion to
Vacate the December 21, 2015 Judgment under Federal
Rule of Civil Procedure 60.1. While Plaintiff’s Motion to
Vacate was pending before the Court, on January 20,
2016, the Supreme Court released the opinion in
Montanile v. Bd. of Tr. of the Nat’l. Elevator Indus.
Health Benefit Plan, 136 S. Ct. 651 (2016). Montanile
held that a plan fiduciary may only enforce an
equitable lien by agreement against specifically
identified funds that remain in the defendant’s
possession or against traceable items that the
defendant purchased with the funds. See Montantile v.
Bd. of Tr. of Nat’l. Elevator Indus. Health Benefit Plan,
136 S. Ct. 651 (2016). The Court denied Plaintiff’s
Motion to Vacate the Court’s December 21, 2015
Judgment. (Bd. of Tr. of the Nat’l. Elevator Indus.
Health Benefit Plan v. McLaughlin, 12-4322, Order,
ECF No. 43). The Court’s denial of Plaintiff’s motion to
vacate is currently pending on appeal before the Third
Circuit.

App. 42
On June 1, 2016, Plaintiffs filed the current lawsuit
against Defendant. (“McLaughlin II,” Civ. No. 16-3121,
ECF No. 1). In the Complaint, Plaintiffs seek an order
declaring that: (1) Defendant is not entitled to withhold
payment of medical benefits as a “set-off” against
moneys that Defendant claims are owed to it as a
result of Bernard McLaughlin’s 2009 accident; and
(2) Defendant must reimburse Plaintiffs for all medical
expenses they have incurred since Defendant asserted
a “set-off’ against moneys that Plaintiffs paid as a
result of the 2009 accident. (Civ. No 16-3121, ECF No.
4). On August 1, 2016, Defendant moved to dismiss
Plaintiffs’ complaint on the ground that Plaintiffs’
claims are barred by the doctrine of res judicata. (Civ.
No. 16-3121, ECF No. 6). Plaintiffs opposed the motion
and cross-moved for partial summary judgment
declaring that the Plan is not entitled to withhold the
payment of medical expenses that it would otherwise
be required to pay on behalf of Plaintiffs.
Defendant’s motion to dismiss and Plaintiffs’ crossmotion for summary judgment are presently before the
Court.
LEGAL STANDARDS
I. Summary Judgment
Summary judgment is appropriate if the record
shows “that there is no genuine issue as to any
material fact and that the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(c);
Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986). In
deciding a motion for summary judgment, a district
court considers the facts drawn from “the pleadings,

App. 43
the discovery and disclosure materials, and any
affidavits” and must “view the inferences to be drawn
from the underlying facts in the light most favorable to
the party opposing the motion.” Fed. R. Civ. P. 56(c);
Curley v. Klem, 298 F.3d 271, 276-77 (3d Cir. 2002)
(internal quotations omitted). In resolving a motion for
summary judgment, the Court must determine
“whether the evidence presents a sufficient
disagreement to require submission to a jury or
whether it is so one-sided that one party must prevail
as a matter of law.” Anderson v. Liberty Lobby, 477
U.S. 242, 251-52 (1986). More precisely, summary
judgment should be granted if the evidence available
would not support a jury verdict in favor of the
nonmoving party. Id. at 248-49. The Court must grant
summary judgment against any party “who fails to
make a showing sufficient to establish the existence of
an element essential to that party’s case, and on which
that party will bear the burden of proof at trial.”
Celotex, 477 U.S. at 322.
II. Motion to Dismiss
A motion under Federal Rule of Civil Procedure
12(b)(6) tests the sufficiency of a complaint. Kost v.
Kozakiewicz, 1 F.3d 176, 183 (3d Cir. 1993). The
defendant bears the burden of showing that no claim
has been presented. Hedges v. United States, 404 F.3d
744, 750 (3d Cir. 2005). When considering a Rule
12(b)(6) motion, a district court should conduct a threepart analysis. See Malleus v. George, 641 F.3d 560, 563
(3d Cir. 2011). “First, the court must ‘take note of the
elements a plaintiff must plead to state a claim.”’ Id.
(quoting Ashcroft v. Iqbal, 56 U.S. 662, 675 (2009)).

App. 44
Second, the court must accept as true all of a plaintiff’s
well-pleaded factual allegations and construe the
complaint in the light most favorable to the plaintiff.
Fowler v. UPMC Shadyside, 578 F.3d 203, 210-11 (3d
Cir. 2009); see also Connelly v. Lane Const. Corp., No.
14-3792, 2016 WL 106159 (3d Cir. Jan. 11, 2016).
However, the court may disregard any conclusory legal
allegations. Fowler, 578 F.3d at 203. Finally, the court
must determine whether the “facts are sufficient to
show that plaintiff has a ‘plausible claim for relief.”’ Id.
at 211 (quoting Iqbal, 556 U.S. at 679). If the complaint
does not demonstrate more than a “mere possibility of
misconduct,” the complaint must be dismissed. See
Gelman v. State Farm Mut. Auto. Ins. Co., 583 F.3d
187, 190 (3d Cir. 2009) (quoting Iqbal, 556 U.S. at 679).
ANALYSIS
There are two main issues that the Court must
address: (1) whether Defendant’s motion to dismiss is
procedurally proper; and (2) whether res judicata bars
Plaintiffs’ claims. The Court will address each in turn.
I. Whether Defendant’s Motion to Dismiss Is
Procedurally Proper
The Court will first address Plaintiffs’ argument
that Defendant’s motion to dismiss is procedurally
improper. Plaintiffs argue that Defendant’s motion to
dismiss based on res judicata should have been brought
as a summary judgment motion rather than as a
motion to dismiss. Fed. R. Civ. P. 8(c) specifically lists
res judicata as an affirmative defense. The Third
Circuit has explained that such an affirmative defense
could properly be the grounds for a motion to dismiss

App. 45
for failure to state a claim upon which relief can be
granted pursuant to Fed. R. Civ. P. 12(b)(6), if the
application of res judicata is apparent on the face of the
complaint. Ryocline Prods., Inc. v. C&W Unlimited, 109
F.3d 883, 886 (3d Cir. 1997). However, the Third
Circuit has also noted “To resolve a 12(b)(6) motion, a
court may properly look at public records, including
judicial proceedings, in addition to the allegations in
the complaint. Specifically, on a motion to dismiss, we
may take judicial notice of another court’s opinion–not
for the truth of the facts recited therein, but for the
existence of the opinion, which is not subject to
reasonable dispute over its authenticity.” S. Cross
Overseas Agencies, Inc. v. Wah Kwong Shipping Grp.,
Ltd., 181 F.3d 410, 426 (3d Cir. 1999) (citations
omitted).
Here, Defendant brings this motion to dismiss
based on the doctrine of res judicata. Specifically,
Defendant claims that Plaintiffs’ suit is barred because
this very court previously issued a valid final judgment
on the merits with respect to Plaintiffs’ claims. (Def.’s
Mot. Dismiss, ECF No. 6 at 8). Plaintiffs claim that
Defendant’s res judicata argument is “not apparent
solely on the face of the complaint,” and as a result the
motion to dismiss is improper (Pls.’ Opp’n. Br., ECF
No. 8 at 3). Plaintiffs’ argument is misplaced. The
Court takes judicial notice of its prior decision in
McLaughlin I, where this Court granted summary
judgment to Defendant and dismissed Plaintiff
Bernard McLaughlin’s counterclaim. By examining
both this Court’s previous decision and the pleadings in
this case, the Defendant’s res judicata argument is
plainly apparent. Therefore, Defendant’s motion to

App. 46
dismiss is procedurally proper and Defendant was not
required to bring the motion as a summary judgment
motion.
II. Res Judicata
The Court must next decide if res judicata bars
Plaintiffs’ claims in the instant case. The doctrine of
res judicata mandates a subsequent suit be barred if
there has been: (1) a final judgment on the merits in a
prior suit; (2) based on the same cause of action;
(3) between the same parties or their privies. Labelle
Processing Co. v. Swarrow, 72 F.3d 308, 313 (3d Cir.
1995). “If these three factors are present, a claim that
was or could have been raised previously must be
dismissed as precluded.” CoreStates Bank, N.A. v. Huls
Am., Inc., 176 F.3d 187, 194 (3d Cir. 1999).
a. Final Judgment on the Merits in a Prior
Suit
The first factor is whether there has been a final
judgment on the merits in a prior suit. The Third
Circuit has stated that summary judgment is a final
judgment on the merits for the purposes of res judicata.
Hubicki v. ACF Indus., Inc., 484 F.2d 519, 524 (3d Cir.
1973). This Court previously granted summary
judgment in favor of Defendant and denied a
counterclaim brought by Plaintiff Bernard McLaughlin
on summary judgment in McLaughlin I. (McLaughlin
I, 12-4322, Opinion, ECF No. 25). Additionally, the fact
that a judgment has been appealed does not affect the
finality of the judgment for purposes of res judicata.
Huron Holding Co. v. Lincoln Mine Operating Co., 312
U.S. 183, 189 (appeal does not “detract

App. 47
from...decisiveness and finality” of judgment). Thus,
Plaintiffs appeal of this Court’s denial of its Motion to
Vacate the December 21, 2015 Order in McLaughlin I
does not affect the application of res judicata here. This
Court’s previous grant of summary judgment in favor
of Defendant and denial of Bernard McLaughlin’s
counterclaim in McLaughlin I qualifies as a final
judgment on the merits in a prior suit for the purposes
of res judicata.
b. Same Cause of Action
The second factor is whether the prior suit and the
subsequent suit are based on the same cause of action.
The Third Circuit has explained that it takes a “broad
view” in deciding whether two suits are based on the
same cause of action. CoreStates Bank, N.A., 176 F.3d
at 194. To make this determination, courts look to
“whether there is an essential similarity of the
underlying events giving rise to the various legal
claims.” Id. (quoting United States v. Athlone Indus.,
Inc., 746 F.2d 977, 984 (3d Cir. 1984)). Additionally, the
Third Circuit has noted that it considers “whether the
acts complained of were the same, whether the
material facts alleged in each suit were the same, and
whether the witnesses and documentation required to
prove such allegations were the same.” Lubrizol Corp.
v. Exxon Corp., 929 F.2d 960, 963 (3d Cir. 1991)
(citations omitted). A difference in the theory of
recovery or relief sought is not dispositive of whether
two suits are based on the same cause of action for
purposes of res judicata. Athlone, 746 F .2d at 984.
Both the complaint in this case and this Court’s
previous judgment in McLaughlin I are based on the

App. 48
same material facts. In both cases, Plaintiff Bernard
McLaughlin alleges he was injured in an ATV accident
and that Defendant paid medical benefits incurred as
a result of the accident. Additionally, it is alleged that
Bernard McLaughlin received a monetary settlement
from a third party in connection with the accident, and
Defendant demanded reimbursement from Bernard
McLaughlin for the medical expenses it paid on his
behalf. Bernard McLaughlin failed to reimburse
Defendant, and Defendant began deducting medical
benefits incurred by Bernard McLaughlin and his
dependent James McLaughlin from the amounts owed
Defendant. The Court is persuaded that the material
facts are extremely similar in both cases.
Additionally, the acts complained of, namely the
withholding of benefits from Bernard McLaughlin and
James McLaughlin, are precisely the same in both
cases. Further, the Court is persuaded that the
witnesses and documentation required to prove each
claim are also similar. Therefore, the second factor of
the Court’s res judicata analysis is satisfied.
c. Same Parties or Their Privies
The third factor is whether the subsequent suit
involves the same parties, or those in privity with the
same parties, as the original suit. Relying on the
Supreme Court decision in Taylor v. Sturgell, 553 U.S.
880 (2008), the Third Circuit has recognized six
situations where nonparty preclusion may be
appropriate:
(1)the nonparty agrees to be bound by the
determination of issues in an action between

App. 49
others; (2) a substantive legal relationship i.e.
traditional privity – exists that binds the
nonparty; (3) the nonparty was “adequately
represented by someone with the same interests
who [wa]s a party”; (4) the nonparty assumes
control over the litigation in which the judgment
is rendered; (5) the nonparty attempts to bring
suit as the designated representative of someone
who was a party in the prior litigation; and
(6) the nonparty falls under a special statutory
scheme that “expressly forecloses successive
litigation by nonlitigants.”
Nationwide Mut. Fire Ins., Co. v. George V.
Hamilton, Inc., 571 F.3d 299, 312 (3d Cir. 2009). In
Nationwide, the Third Circuit used these six factors to
determine if privity existed for the purposes of
collateral estoppel. Id. The Third Circuit has also
applied these factors to determine if privity exists for
purposes of res judicata. Radovich v. L.P. YA Glob.
Investments, L.P., 570 F. App’x 203, 206-08 (3d Cir.
2014).
Here, the parties do not dispute that Plaintiff
Bernard McLaughlin was the Defendant in
McLaughlin I. However, James McLaughlin was not a
party in McLaughlin I. Defendant argues that James
McLaughlin (Bernard McLaughlin’s son and the other
named Plaintiff in this case) was in privity with
Bernard McLaughlin. Plaintiffs argue that James
McLaughlin was not in privity with any party to the
prior suit, and thus, res judicata cannot apply.
The Court is persuaded that the second form of
privity cited in Nationwide exists here. James

App. 50
McLaughlin was in privity with Bernard McLaughlin
due to the substantive legal relationship that existed
between the two, namely the relationship of participant
and eligible dependent in a health benefit plan. James
McLaughlin’s right to receive benefits from the Plan
derives entirely from Bernard McLaughlin’s
participation in the Plan. James McLaughlin’s claim
that the plan is not entitled to withhold benefits from
him is also wholly derivative of Bernard McLaughlin’s
participation in the plan. This substantive legal
relationship between James and Bernard McLaughlin
sufficiently aligned James McLaughlin’s interest with
Bernard McLaughlin’s so as to justify binding James
McLaughlin by the outcome of McLaughlin I. The
Court finds that James McLaughlin and Bernard
McLaughlin were in privity for purposes of res judicata.
Therefore, the third and final element of res judicata is
satisfied here.
d. Applicability of an Exception to Res
Judicata
The next issue the Court must consider is whether
an exception to res judicata applies in this case. The
Third Circuit has noted that res judicata applies “only
to claims arising prior to the entry of judgment,” and
that res judicata does not “bar claims arising
subsequent to the entry of judgment and which did not
then exist or could not have been sued upon in the prior
action.” Alexander & Alexander, Inc. v. Van Impe, 787
F.2d 163, 166 (3d Cir. 1986).
Here, Plaintiffs argue that this Court’s December
21, 2015 Order, which imposed personal liability on
Bernard McLaughlin for a sum certain, constitutes a

App. 51
“continuing course of conduct” that blocks the
application of res judicata in this case. (Pls.’ Opp’n. Br.,
ECF No. 8 at 9). Plaintiffs argue that the rights and
liabilities of the parties were not fixed until the
December 21, 2015 Order, and thus res judicata could
not bar claims arising prior to the entry of that Order.
(Pls.’ Opp’n. Br., ECF No. 8 at 12). This argument is
misplaced. Defendant began offsetting the Plaintiffs’
benefits in 2013. That same year, Plaintiff filed his
counterclaim in McLaughlin I alleging that Defendant
violated its fiduciary duty by offsetting benefits payable
to Bernard McLaughlin by the amounts owed to
Defendant. This Court then granted summary
judgment to Defendant and denied Plaintiff Bernard
McLaughlin’s claim on January 24, 2014. As previously
discussed, this constitutes a final judgment for
purposes of res judicata. In this instant case, Plaintiffs
seek the same relief that was previously sought in
McLaughlin I, namely a judgment that Defendant is
not entitled to claim such an offset and withhold
Plaintiffs benefits. As a result, the Court finds that
Plaintiffs’ claims arose prior to the entry of judgment
in the prior suit, and this exception to res judicata does
not apply here.
e. Effect of Montanile Decision
Application of Res Judicata

on

Next, the Court must address whether the Supreme
Court’s decision in Montanile has any effect on the
application of res judicata. The Supreme Court has
stated that the res judicata consequences of a final
judgment are not altered, “by the fact that the
judgment may have been wrong or rested on a legal

App. 52
principle subsequently overruled in another case.”
Federated Dept. Stores, Inc. v. Moitie, 452 U.S. 394, 398
(1981). Further, the Supreme Court has noted, “A
judgment merely voidable because based upon an
erroneous view of the law is not open to collateral
attack, but can be corrected only by a direct review and
not by bringing another action upon the same cause [of
action].” Id. (quoting Baltimore S.S. Co. v. Phillips, 274
U.S. 316, 325 (1927).
Montanile was decided on January 20, 2016, after
this Court’s decision in McLaughlin I on January 24,
2014. This Court’s decision in McLaughlin I was a final
judgment on the merits and thus, the res judicata
consequences of it were not altered by Montanile.
Plaintiffs’ claims are barred by the doctrine of res
judicata.
f. Whether the Summary Plan Description
Authorizes the “Set-Off”
Plaintiffs argue that Defendants are not permitted
to claim a “set-off’ because it has failed to point to a
plan document that authorizes it to do so. The Supreme
Court has recognized that statements in a Summary
Plan Description (“SPD”), “provide communication with
beneficiaries about the plan, but ... do not themselves
constitute the terms of the plan.” Cigna Corp. v.
Amara, 131 S. Ct. 1866, 1878 (2011). If the parties do
not dispute that a SPD constitutes the terms of a plan,
however, a Court may treat a SPD as if it were the plan
itself. See US Airways, Inc. v. McCutchen, 133 S. Ct.
1537 (2013); Bd. of Tr. of the Nat’l. Elevator Indus.
Health Benefit Plan v. McLaughlin, 590 F. App’x 154
(3d Cir. 2014).

App. 53
In this case, the parties disagree over whether the
terms of the Plan authorize Defendant to claim a “setoff.” However, whether the terms of the Plan authorize
Defendant to claim a “set-off’ today is irrelevant to
determining whether res judicata bars Plaintiffs’ claim.
The Court need not address this issue to decide this
motion. Plaintiffs’ claims are barred by res judicata.
III.

Plaintiffs’ Cross-Motion
Judgment

for

Summary

Plaintiffs cross-move for summary judgment
seeking a judgment “declaring that as a matter of law,
the Plan is not entitled to assert a set-off of its claim
against payment of medical expenses that it would
otherwise be required under the terms of the Plan to
pay on behalf of the McLaughlin family.” (Pis.’ Opp’n.
Br., ECF No. 8 at 2). For the reasons stated above,
Plaintiffs’ claims are barred by the doctrine of res
judicata. Therefore, the complaint is dismissed and
Plaintiffs cannot prevail on this claim.
CONCLUSION
For the foregoing reasons, Defendant’s motion to
dismiss will be granted, and Plaintiffs’ cross-motion for
summary judgment will be denied. An appropriate
order will follow.

/s/Anne E. Thompson
ANNE E. THOMPSON, U.S.D.J.
Date: October 12, 2016

App. 54
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civ. No. 16-3121
[Filed October 13, 2016]
________________________________
BERNARD MCLAUGHLIN AND )
JAMES JOSEPH MCLAUGHLIN, )
a minor, through his g/a/l
)
REGINA MCLAUGHLIN,
)
)
Plaintiffs,
)
)
v.
)
)
BOARD OF TRUSTEES OF
)
THE NATIONAL ELEVATOR
)
INDUSTRY HEALTH
)
BENEFIT PLAN,
)
)
Defendant.
)
________________________________ )
ORDER
THOMPSON, U.S.D.J.
For the reasons stated in this Court’s Opinion on
this same day,
IT IS, on this 12th day of October, 2016,
ORDERED that Defendant Board of Trustees of the
National Elevator Industry Health Benefit Plan’s

App. 55
Motion to Dismiss (ECF No. 6) is GRANTED; and it is
further
ORDERED that Plaintiff Bernard McLaughlin and
James Joseph McLaughlin’s Cross-motion for
Summary Judgment (ECF No. 8) is DENIED; and it is
further
ORDERED that Plaintiff Bernard McLaughlin and
James Joseph McLaughlin’s Complaint (ECF No. 4) is
DISMISSED.
/s/ Anne E. Thompson
ANNE E. THOMPSON, U.S.D.J.

App. 56

APPENDIX G
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civ. No. 12-4322
[Filed February 17, 2016]
_____________________________
BOARD OF TRUSTEES OF
)
THE NATIONAL ELEVATOR )
INDUSTRY HEALTH
)
BENEFIT PLAN,
)
)
Plaintiff,
)
)
v.
)
)
BERNARD MCLAUGHLIN,
)
)
Defendant.
)
_____________________________ )
OPINION
THOMPSON, U.S.D.J.
This matter comes before the Court upon the
Motion of Defendant Bernard McLaughlin
(“Defendant”) to Vacate the December 21, 2015
Judgment of this Court clarifying the Court’s prior
judgment with a sum certain. (ECF Nos. 33, 40).

App. 57
Plaintiff Board of Trustees of the National Elevator
Industry Health Benefit Plan (“Plaintiff”) opposes.
(ECF No. 41). The Court has issued the Opinion below
based upon the written submissions of the parties and
oral argument. For the reasons stated herein,
Defendant’s Motion will be denied.
BACKGROUND
Defendant is a participant in Plaintiff’s National
Elevator Industry Health Benefit Plan (“the Plan”), a
self-funded ERISA-governed multi-employer employee
welfare benefit plan. In January 2009, Defendant was
injured in an accident, and the Plan thereafter
advanced at least $47,590.24 in medical benefits on his
behalf. Defendant filed personal injury claims related
to the accident against a third party, and in December
2011, Defendant received a settlement. In the event of
a third-party settlement, Defendant’s agreement with
the Plan required him to reimburse the Plan for any
benefits advanced on his behalf. However, despite the
fact that Defendant received compensation from a third
party, he refused to reimburse the Plan for the benefits
the Plan had expended.
Plaintiff filed suit against Defendant in July 2012 to
recover the funds advanced on Defendant’s behalf. On
January 24, 2014, the Court granted summary
judgment to Plaintiff. The Court concluded that
Plaintiff successfully established that the language of
the Plan gave rise to an equitable lien by agreement,
recognized by the Supreme Court as an equitable
remedy under ERISA § 502(a)(3). The Court also held
that New Jersey’s Collateral Source Statute, N.J. Stat.
Ann. § 2A:15-97, which Defendant argued prohibited

App. 58
him from recovering medical expenses from the third
party, was preempted by ERISA and that, in any event,
the language of the Plan controlled.
Defendant appealed, and on October 1, 2014, the
Third Circuit affirmed the Court’s grant of summary
judgment to Plaintiff. Defendant petitioned for
certiorari to the United States Supreme Court, but the
Supreme Court denied the petition on February 23,
2015. Plaintiff returned to this Court on December 18,
2015, stating that it wished to file a lien against
Defendant for the unpaid medical bills, but that the
order and judgment from the Court granting summary
judgment did not mention a sum certain. Plaintiff
noted that it had paid bills totaling $61,973.32, but
requested $45,347.89 in light of the original amount
claimed in the filings in this Court and certain set-offs
that had occurred. Given the proceedings in the Third
Circuit and the Supreme Court, as well as the fact that
the sum requested matched the amount originally
claimed, the Court approved the proposed judgment for
a sum of $45,347.89 on December 21, 2015.
Later that day, Defendant filed a Motion to Vacate
the December 21, 2015 Judgment under Federal Rule
of Civil Procedure 60.1 Defendant argued that (1) the
amount of the final judgment should be modified to
include additional set-offs; (2) the proposed judgment
was not properly presented to the Court by way of a
1

Defendant does not specify which section of Rule 60 forms the
basis of his Motion. The Court will treat Defendant’s Motion as a
motion under the catchall provision, Rule 60(b)(6), as none of the
other provisions appear to provide a basis for Defendant’s Motion.
See Fed. R. Civ. Pro. 60(b).

App. 59
formal motion; and (3) Plaintiff’s request for a money
judgment was not permitted under ERISA’s restriction
that the District Courts may only grant equitable relief
to enforce the terms of an ERISA plan.
On January 20, 2016, the Supreme Court released
the opinion in Montanile v. Board of Trustees of the
National Elevator Industry Health Benefit Plan, 136 S.
Ct. 651 (2016). Defendant supplemented his Motion
with an additional argument that the holding in
Montanile requires the Court to vacate its prior
judgment awarding Plaintiff $45,347.89. Montanile
held that a plan fiduciary may only enforce an
equitable lien by agreement against specifically
identified funds that remain in the defendant’s
possession or against traceable items that the
defendant purchased with the funds. Defendant
maintains that Plaintiff impermissibly seeks a lien
against his general assets, because the fund from the
settlement no longer exists and was spent on
nontraceable items.
This Motion to Vacate is presently before the Court.
DISCUSSION
Rule 60(b) allows a party to seek relief from a final
judgment under a limited set of circumstances,
including fraud, mistake, and newly discovered
evidence. Gonzalez v. Crosby, 545 U.S. 524, 528 (2005).
Rule 60(b)(6) provides a catchall provision, permitting
relief for “any other reason that justifies relief.” Fed. R.
Civ. P. 60(b)(6). However, a party seeking relief under
the catchall provision “must demonstrate the existence
of ‘extraordinary circumstances’ that justify reopening

App. 60
the judgment.” Budget Blinds, Inc. v. White, 536 F.3d
244, 255 (3d Cir. 2008). “[I]ntervening changes in the
law rarely justify relief from final judgments under
60(b)(6).” Cox v. Horn, 757 F.3d 113, 121 (3d Cir. 2014),
cert. denied sub nom. Wetzel v. Cox, 135 S. Ct. 1548
(2015); see also Reform Party of Allegheny Cnty. v.
Allegheny Cnty. Dep’t of Elections, 174 F.3d 305, 311
(3d Cir. 1999); Morris v. Horn, 187 F.3d 333, 341 (3d
Cir. 1999).
Here, Defendant has failed to demonstrate the
existence of extraordinary circumstances that would
justify vacating the judgment and reopening this case.
Defendant argues that the intervening change of law
requires this Court to vacate its prior judgment.
However, as noted above, Third Circuit precedent
states that an intervening change in the law is rarely
sufficient to justify relief from a final judgment. Nor do
Defendant’s prior arguments as to why the judgment
should be vacated present extraordinary
circumstances, as they essentially reargue parts of the
case that were already litigated. As to Defendant’s
assertion that the judgment was not presented by way
of a formal motion, which would have allowed
Defendant to oppose the judgment, Defendant was
given the opportunity to oppose the motion in oral
argument and through subsequent briefing. (See ECF
No. 40).
Moreover, the Court finds that the equities of this
case weigh against vacating the judgment. All of the
issues that were appealed have been fully and fairly
litigated. The Third Circuit affirmed this Court’s
judgment, and the Supreme Court declined to issue a

App. 61
writ of certiorari. Defendant will not be granted a
second bite at the apple. Defendant’s agreement with
the Plan required him to reimburse the Plan with any
settlement proceeds he received. After receiving a
settlement, seemingly structured to avoid reimbursing
the Plan, Defendant then refused to comply with his
obligation to reimburse the Plan. Were the Court to
vacate its prior judgment, Defendant would essentially
recover twice. Defendant would also be rewarded for
his efforts to circumvent his binding agreement with
the Plan.
In similar circumstances, the Third Circuit has held
that a district court is within its discretion in rejecting
a Rule 60(b)(6) motion. Coltec Indus., Inc. v. Hobgood,
280 F.3d 262, 273 (3d Cir. 2002) (finding that the
district court did not abuse its discretion in rejecting a
Rule 60(b)(6) motion where the party advancing the
motion was trying to escape the effects of a bargain it
regretted in hindsight). Therefore, the Court will deny
Defendant’s Motion.
CONCLUSION
For the reasons above, Defendant’s Motion to
Vacate the Court’s December 21, 2015 Judgment will
be denied. A corresponding Order follows.
/s/ Anne E. Thompson
Anne E. Thompson, U.S.D.J.

App. 62
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civ. No. 12-4322
[Filed February 17, 2016]
_____________________________
BOARD OF TRUSTEES OF
)
THE NATIONAL ELEVATOR )
INDUSTRY HEALTH
)
BENEFIT PLAN,
)
)
Plaintiff,
)
)
v.
)
)
BERNARD MCLAUGHLIN,
)
)
Defendant.
)
_____________________________ )
ORDER
THOMPSON, U.S.D.J.
For the reasons set forth in the Opinion issued on
this same day,
IT IS, on this 16th day of February, 2016,
ORDERED that Defendant Bernard McLaughlin’s
Motion to Vacate the Court’s December 21, 2015
Judgment (ECF Nos. 33, 40) is DENIED.

App. 63
/s/ Anne E. Thompson
Anne E. Thompson, U.S.D.J.

App. 64

APPENDIX H
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
TRENTON DIVISION
CIVIL ACTION
CASE NO. 3:12-CV-4322-AET-TJB
[Filed December 21, 2015]
________________________________
BOARD OF TRUSTEES OF
)
THE NATIONAL ELEVATOR
)
INDUSTRY HEALTH BENEFIT )
PLAN
)
)
Plaintiff,
)
)
v.
)
)
BERNARD MCLAUGHLIN
)
)
Defendant.
)
________________________________ )
JUDGMENT
Now, on application of Gibson & sharps, PSC,
attorneys for Plaintiff, this action having been decided
in favor of Plaintiff the Board of Trustees of the
National Elevator Health Benefit Plan on motion for
Summary Judgment on January 24, 2014, affirmed by
the Third Circuit Court of Appeals on September 9,

App. 65
2014 and certiorari denied by the US Supreme Court
on February 23, 2015; and no further appeals pending;
and upon the annexed exhibits duly considered and for
good cause appearing;
IT IS on this, 21st day of December, 2015;
ORDERED that Plaintiff the Board of Trustees of
the National Elevator Industry Health Benefit Plan
recover from the Defendant Bernard McLaughlin the
amount of forty-five thousand three hundred fortyseven dollars and eighty-nine cents ($45,347.89); and it
is
ORDERED that Judgment be entered in favor of
Plaintiff Board of Trustees of the National Elevator
Industry Health Benefit Plan.
Anne E. Thompson
Anne E. Thompson, USDJ

App. 66

APPENDIX I
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 14-1308
[Filed October 1, 2014]
________________________________
BOARD OF TRUSTEES OF
)
THE NATIONAL ELEVATOR
)
INDUSTRY HEALTH BENEFIT )
PLAN
)
)
v.
)
)
BERNARD MCLAUGHLIN,
)
Appellant
)
________________________________ )
APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE
DISTRICT OF NEW JERSEY
(D.C. Civ. No. 3-12-cv-04322)
District Judge: Honorable Anne E. Thompson
____________
Submitted Under Third Circuit LAR 34.1(a)
September 9, 2014
____________
Before: RENDELL, GREENAWAY, JR. and
BARRY, Circuit Judges

App. 67
(Filed: October 1, 2014)
____________
OPINION
____________
BARRY, Circuit Judge
Appellant Bernard McLaughlin appeals the order of
the District Court granting summary judgment in favor
of the Board of Trustees of the National Elevator
Industry Health Benefit Plan (the “Board”) on the
Board’s claim for reimbursement of money paid by the
National Elevator Industry Health Benefit Plan (the
“Plan”) toward McLaughlin’s medical expenses. We will
affirm.
I.
The facts of this case are undisputed. In broad
summary, McLaughlin is a participant in the Plan, a
self-funded, ERISA-governed, multi-employer employee
welfare benefit plan of which the Board is a fiduciary.
In January 2009, McLaughlin was injured in an ATV
(“all-terrain vehicle”) accident, and the Plan thereafter
paid approximately $47,590.24 in medical benefits on
his behalf. McLaughlin filed personal injury claims
against a third party, and, in December 2011, that case
settled.

App. 68
The Plan language1 provides as follows:
The Plan has a right to first reimbursement out
of any recovery. Acceptance of benefits from the
Plan for an injury or illness by a covered person,
without any further action by the Plan and/or
the covered person, constitutes an agreement
that any amounts recovered from another party
by award, judgment, settlement or otherwise,
and regardless of how the proceeds are
characterized, will promptly be applied first to
reimburse the Plan in full for benefits advanced
by the Plan due to the injury or illness . . . .
(App. at 21.) The Plan also provides that it “reserves
the right to make all decisions with respect to its rights
of subrogation and recovery,” and that it “has the right
to treat any benefits provided as an advance and to
deduct such amounts from future benefits to which the
covered person or an immediate covered family
member may otherwise be entitled until the amount
due the Plan has been satisfied.” (Id. at 22.)

1

The parties cite to language in the Summary Plan Description as
the language of the Plan. As the Supreme Court has recognized,
statements in a summary plan description “provide
communications with beneficiaries about the plan, but . . . do not
themselves constitute the terms of the plan.” Cigna Corp. v.
Amara, 131 S.Ct. 1866, 1878 (2011). Because the parties have
consistently treated this language as if it came from the Plan,
however, we may do so as well. US Airways, Inc. v. McCutchen,
133 S.Ct. 1537, 1543 n.1 (2013) (“Because everyone in this case has
treated the language from the summary description as though it
came from the plan, we do so as well.”).

App. 69
Following unsuccessful attempts to collect
reimbursement from McLaughlin, the Plan filed this
action in July 2012 pursuant to ERISA § 502(a)(3), 29
U.S.C. § 1132(a)(3). McLaughlin filed a counterclaim,
alleging that after the tort claims settled, the Plan
unlawfully refused to pay medical expenses for himself
and his family unrelated to the ATV accident. The
parties filed cross motions for summary judgment, and,
on January 24, 2014, the District Court granted
summary judgment to the Board. The Court concluded
that the Board successfully established that the
language of the Plan gave rise to an “equitable lien by
agreement,” recognized by the Supreme Court as an
equitable remedy under ERISA § 502(a)(3) in Sereboff
v. Mid Atl. Med. Servs, Inc., 547 U.S. 356 (2006). The
Court also held that New Jersey’s Collateral Source
Statute (the “NJCSS”), N.J. Stat. Ann. § 2A:15-97,
which McLaughlin argued prohibited him from
recovering medical expenses from the third party, was
pre-empted by ERISA and that, in any event, the
language of the Plan controlled. The Court rejected, as
well, McLaughlin’s affirmative defense of laches and
found McLaughlin’s argument that he had no duty to
reimburse the plan to be “unpersuasive.” (App. at 7
n.3.)
McLaughlin now appeals, arguing that the District
Court erred in concluding that the Plan had an
equitable lien against his tort recovery because there
was no nexus between the funds received by him
(which excluded compensation for medical expenses)
and the funds expended by the Plan (which were solely
for medical expenses). McLaughlin also argues that the

App. 70
Court erred in concluding that the NJCSS was preempted by ERISA and in rejecting his other arguments.
II.
The District Court had jurisdiction pursuant to 29
U.S.C. § 1132(e)(1), and we have jurisdiction pursuant
to 28 U.S.C. § 1291. We exercise plenary review of a
district court’s decision granting summary judgment.
Funk v. Cigna Gr. Ins., 648 F.3d 182, 190 (3d Cir.
2011). Summary judgment is appropriate where the
movant “shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
III.
ERISA § 502(a)(3) provides that a fiduciary may
bring a civil action: “to obtain . . . equitable relief . . . to
enforce . . . the terms of the plan.” 29 U.S.C.
§ 1132(a)(3). In Sereboff v. Mid Atlantic Medical
Services, Inc., 547 U.S. 356, 363 (2006), the Supreme
Court held that an ERISA fiduciary may sue a
beneficiary for reimbursement of medical expenses,
pursuant to the terms of the ERISA plan, where the
fiduciary seeks recovery “through a constructive trust
or equitable lien on a specifically identified fund,” not
from the beneficiary’s general assets. In Sereboff, an
ERISA plan paid medical expenses to two beneficiaries
following an automobile accident, and then sought
reimbursement from the beneficiaries after they
received a tort settlement related to the accident. Id. at
360. The ERISA plan language provided that when a
beneficiary was “sick or injured as a result of the act or
omission of another person or party” and received

App. 71
benefits from the plan, the beneficiary was required to
reimburse the plan for those benefits from “[a]ll
recoveries from a third party (whether by lawsuit,
settlement, or otherwise).” Id. at 359 (internal
quotation marks omitted). While the beneficiaries in
Sereboff argued that the plan’s claim was not equitable
and thus not cognizable under ERISA, the Court held
that the language of the plan gave rise to an “equitable
lien by agreement” permitting the plan to obtain
reimbursement from the beneficiaries’ tort settlement.
Id. at 364-65.
In US Airways, Inc. v. McCutchen, 133 S.Ct. 1537,
1546 (2013), the Court made clear that an “equitable
lien by agreement . . . both arises from and serves to
carry out a contract’s provisions.” In McCutchen, as in
Sereboff, an ERISA plan beneficiary received a tort
settlement related to an injury, and, pursuant to the
terms of the plan2, the ERISA plan sought
reimbursement for medical expenses it had paid in
connection with that injury. Id. at 1543. The
beneficiary argued that “in equity,” the ERISA plan
“could recoup no more than an insured’s ‘double
recovery’ – the amount the insured has received from
a third party to compensate for the same loss the
insurance covered.” Id. at 1545 (emphasis added). The
beneficiary argued that, pursuant to this “double

2

The plan at issue in McCutchen provided that when a
beneficiary’s claim arose as the result of the “negligence, willful
misconduct, or other actions of a third party,” the beneficiary was
required to reimburse the employer for amounts paid for claims
“out of any monies recovered from [the] third party . . . .” Id. at
1543.

App. 72
recovery” rule, a principle of unjust enrichment, the
ERISA plan’s reimbursement would be limited “to the
share of [the beneficiary’s] settlements paying for
medical expenses; [the beneficiary] would keep the rest
(e.g., damages for loss of future earnings or pain and
suffering), even though the plan gives [the employer]
first claim on the whole third-party recovery.” Id. In
other words, the beneficiary in McCutchen argued that,
at equity, because the ERISA plan only paid for
medical expenses, it could only seek reimbursement
from him to the extent his settlement compensated him
for medical expenses.3 The Supreme Court rejected the
beneficiary’s argument, holding that the language of
the ERISA plan governed, giving the plan first claim to
his entire recovery. Id. at 1546-48. The Court confirmed
that where an equitable lien by agreement exists, “[t]he
agreement itself becomes the measure of the parties’
equities,” and held that “enforcing the lien means
holding the parties to their mutual promises,” which
includes “declining to apply rules . . . at odds with the
parties’ expressed commitments.” Id. at 1546, 1548.
In this case, just as in McCutchen, the language of
the Plan plainly does not limit the Plan’s ability to
recover its expenditures for medical expenses to an
award for medical expenses only, instead granting the
Plan a right to reimbursement “regardless of how the
proceeds are characterized.” (See App. at 21.) While
McLaughlin argues that such a result is inconsistent
with the concept of equitable restitution, at issue here
is an equitable lien by agreement, not equitable
3

In McCutchen, it appears that the tort recovery included
compensation for medical expenses as well as other damages.

App. 73
restitution. The Supreme Court’s decision in
McCutchen could not be clearer in holding that, under
such circumstances, the language of the ERISA plan
governs what the plan can recover.
McLaughlin argues that he was prohibited from
claiming medical expenses in his tort action due to the
NJCSS, which provides that in a civil action brought
for personal injury, where the “plaintiff receives or is
entitled to receive benefits for the injuries allegedly
incurred from any other source other than a joint
tortfeasor,” this must be “disclosed to the court and the
amount thereof which duplicates any benefit contained
in the award shall be deducted from any award
recovered . . . .” N.J. Stat. Ann. § 2A:15-97. We,
however, are in agreement with the District Court that,
regardless of the operation of the NJCSS, the Plan’s
language requiring McLaughlin to reimburse the Plan
from the proceeds of his tort settlement is clear and
controlling.
While McLaughlin appears to have assumed that
the NJCSS would preclude recovery of medical
expenses, given the Plan’s right to reimbursement from
his recovery, it is far from clear that the Plan’s
payments on his behalf would have constituted a
“collateral source” of benefits under the NJCSS, had
the issue actually been presented to a court. In
Taransky v. Sec’y of U.S. Dept. of Health & Human
Servs., --- F.3d --- , 2014 WL 3719158, at *8 (3d Cir.
July 29, 2014), for example, we held that a tort plaintiff
was responsible for reimbursing Medicare from the
proceeds of her tort settlement, despite her argument
that the NJCSS precluded her from recovering medical

App. 74
expenses (and despite the fact that she had obtained an
allocation order indicating that no portion of her
settlement was attributable to medical expenses). We
held that the NJCSS did not prevent Medicare from
seeking reimbursement, as the Medicare payments,
“because of their conditional nature, [did] not
constitute a collateral source of benefits under the
NJCSS.” Id. Here, the Plan’s payments on
McLaughlin’s behalf were similarly conditional, given
the plain language of the Plan which contractually
obligated McLaughlin to reimburse the Plan following
a personal injury settlement. Just as we held in
Taransky that the tort plaintiff “may not rely on the
NJCSS to avoid reimbursing the Government for
Medicare payments it has made on her behalf,” id., so
too here, McLaughlin cannot rely on the NJCSS to
avoid reimbursing the Plan, as he was contractually
obligated to do so.4
We have carefully considered McLaughlin’s other
arguments and find them to be without merit. While
McLaughlin argues that he and his attorneys were
under no duty to protect the Plan’s interests, it is clear
that the plain language of the Plan contractually
obligated McLaughlin to reimburse the Plan. (See App.
at 21 (“[a]cceptance of benefits . . . constitutes an
agreement that any amounts recovered from another

4

Given our conclusion that the Plan’s language created an
enforceable equitable lien by agreement regardless of the operation
of the NJCSS, we need not address the issue of ERISA preemption, although we note that we have elsewhere held that
ERISA does pre-empt the NJCSS. See Levine v. United Healthcare
Corp., 402 F.3d 156, 166 (3d Cir. 2005).

App. 75
party . . . will promptly be applied first to reimburse
the Plan . . . .”) In addition, for the same reasons stated
by the District Court, we reject McLaughlin’s
affirmative defense of laches.
IV.
For the foregoing reasons, we will affirm the
District Court’s order granting summary judgment in
favor of the Board.

App. 76

APPENDIX J
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civ. No. 12-4322
[Filed January 24, 2014]
_____________________________
Board of Trustees of the
)
National Elevator Industry
)
Health Benefit Plan,
)
)
Plaintiff,
)
)
v.
)
)
Bernard McLaughlin,
)
)
Defendant.
)
_____________________________ )
OPINION
THOMPSON, U.S.D.J.
This matter comes before the Court on Plaintiff
Board of Trustees of the National Elevator Industry
Health Benefit Plan’s motion for summary judgment,
(Doc. No. 20), and Defendant Bernard McLaughlin’s
counterclaim and motion for summary judgment, (Doc.
No. 22). The Court has issued the Opinion below based

App. 77
upon the written submissions of the parties and
without oral argument pursuant to Federal Rule of
Civil Procedure 78(b). For the reasons stated herein,
the Court grants Plaintiff’s motion for summary
judgment and denies Defendant’s motion.
DISCUSSION
Defendant’s ERISA Plan seeks reimbursement for
money paid toward Defendant’s medical expenses.
(Doc. No. 1, 1). Plaintiff is the named fiduciary and
administrator of the National Elevator Industry Health
Benefit Plan (the “Plan”), as defined in sections 402(a)
and 3(16)(A) of the Employee Retirement Income
Security Act of 1974 (ERISA) (29 U.S.C. § 1102(a) and
§ 1002(16)(A). Defendant was a participant in the Plan.
(Doc. No. 1, 2).
On January 10, 2009, Defendant was injured in a
motor vehicle accident. (Doc. No. 1, 1). Defendant
asserted a liability claim against a third party for his
injuries. (Doc. No. 1, 2). The third party settled with
Defendant. (Doc. No. 1, 2).
A portion of Defendant’s medical bills were paid by
the Plan. (Doc. No. 1, 2). The Plan required Defendant
to reimburse the Plan if Defendant received money
from any proceeding related to the injury, “regardless
of how the proceeds are characterized.” (Doc. No. 1).
The Plan states:
[a]cceptance of benefits from the Plan for
an injury or illness by a covered person
[. . .] constitutes an agreement that any
amounts recovered from another party by
award, judgment, settlement or

App. 78
otherwise, and regardless of how the
proceeds are characterized, will promptly
be applied first to reimburse the Plan in
full for benefits advanced by the Plan due
to the injury or illness and without
reduction for attorney’s fees, costs,
expenses or damages claimed by the
covered person, and regardless of whether
the covered person is made whole or
recovers only parts of his/her damages.
(Doc. No. 1). Based on this language, Plaintiff
contends that Defendant must reimburse Plaintiff for
the money advanced for medical bills from the
settlement proceeds. (Doc. No. 1). However, Defendant
claims that he did not ask for or receive money for
medical bills in the settlement and, therefore, is under
no obligation to reimburse Plaintiff. (Doc. No. 22, 8).
Defendant has also counterclaimed pursuant to 29
U.S.C. § 1132 ((a)(1)(B)) for a declaration that his right
to benefits is unaffected by this failure to reimburse the
Plan and has moved for summary judgment on that
count. (Doc. No. 22).
1. Legal Standard
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(c)(2).
The Court must construe all facts and inferences in the
light most favorable to the nonmoving party. Boyle v.
City of Allegheny Pennsylvania, 139 F.3d 386, 393 (3d
Cir. 1998). The nonmoving party must come forward

App. 79
with specific facts showing a genuine issue for trial.
Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp.,
475 U.S. 574, 586-87 (1986) (citations omitted). “A
factual dispute is ‘genuine’ and . . . warrants trial ‘if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.’” Brightwell v.
Lehman, 637 F.3d 187, 194 (3d Cir. 2011) (citations
omitted).
“Credibility determinations, the weighing of the
evidence, and the drawing of legitimate inferences from
the facts are jury functions, not those of a judge.”
Anderson v. Liberty Lobby, 477 U.S. 242, 255 (1986). If
a civil defendant moves for summary judgment on the
basis that plaintiff has failed to establish a material
fact, the judge must inquire not as to “whether [s]he
thinks the evidence unmistakably favors one side or
the other but[,] whether a fair-minded jury could
return a verdict for the plaintiff on the evidence
presented.” Id. at 252. A mere “scintilla of evidence in
support of the plaintiff’s position will be insufficient;
there must be evidence on which the jury could
reasonably find for the plaintiff.” Id.
2. Analysis
The Court must determine three main issues:
1) whether Plaintiff may bring the present action;
2) whether the Court should enforce the terms of the
Other Party Liability Claims provision of the Plan; and
3) whether Defendant may assert the affirmative
defense of laches.

App. 80
a. Can Plaintiff Bring the Present Action?
The threshold question in this case is whether
Plaintiff can bring the present action. A fiduciary may
bring a civil action under § 502(a)(3) of ERISA in the
following circumstances:
(A) to enjoin any act or practice which violates
any provision of this subchapter or the terms of
the plan; or
(B) to obtain other appropriate equitable relief;
(i) to redress such violations; or
(ii) to enforce any provisions of this
subchapter or the terms of the plan.
29 U.S.C. § 1132(a)(3). When a fiduciary seeks to
obtain equitable relief to enforce the terms of the plan,
suit is only authorized under “those categories of relief
that were typically available in equity.” Mertens v.
Hewitt Associates, 508 U.S. 248, 256 (1993). Plaintiff is
a fiduciary under ERISA and Plaintiff’s suit is to
enforce the terms of the “Other Party Liability Claims”
provision in the Plan. Thus, the only question
remaining is whether the relief requested is “equitable”
under § 502(a)(3)(B). See Sereboff v. Mid Atl. Med.
Servs., Inc., 547 U.S. 356, 361 (2006).
An equitable lien by agreement constitutes
equitable relief authorized by § 502(a)(3) of ERISA.
Sereboff, 547 U.S. at 368-69. To qualify as an equitable
lien by agreement, the contract must: 1) identify a
particular fund distinct from the defendant’s general
assets; and 2) identify a particular share of the fund to

App. 81
which it is entitled. Id.; see also U.S. Airways, Inc. v.
McCutchen, 133 S.Ct. 1537, 1544 (2013) (“a contract to
convey a specific object not yet acquired creates a lien
on that object as soon as the contractor gets a title to
the thing”) (internal citations omitted).
Here, Defendant claims that the settlement lacks a
sufficient nexus to the medical bills to satisfy this test.1
However, this case is analogous to Sereboff, in which
the Court found that a plan seeking reimbursement for
medical expenses under a similar agreement “properly
sought ‘equitable relief’ under §502(a)(3).” Sereboff, 547
U.S. at 369. Even though the settlement in that case
did not specifically identify money for medical bills, the
plaintiff’s action was an action for equitable relief
because the claim specifically identified the portion of
the settlement to which the plan was entitled. Id.
Similarly, the Plan in this case identifies “any amounts
recovered from a third party by award, settlement,
judgment or otherwise” as a particular fund distinct
from Defendant’s general assets. The Plan also
specifically calls for the amount necessary to
“reimburse the Plan in full for benefits advanced,” a
particular share of the fund to which the Plan is

1

While Defendant cites the Supreme Court’s decision in Knudson,
in which the Court found that a plan was not entitled to bring its
claim for reimbursement, this case is much different. See GreatWest Life & Annuity Insurance Co, et al. v. Knudson, 534 U.S. 204
(2002). In Knudson, the Court examined an equitable lien imposed
by restitution, whereas the present case deals with an equitable
lien by agreement. Id. at 211. The Supreme Court has noted that
“an equitable lien sought as a matter of restitution and an
equitable lien ‘by agreement’ . . . [are] different species of relief.”
Sereboff, 547 U.S. at 364.

App. 82
entitled.2 Accordingly, the Court finds that Plaintiff can
bring the present action under § 502(a)(3) of ERISA.
b. Enforceability of Other Party Liability
Claims Provision
After finding that Plaintiff can bring the present
action, the Court now turns to the enforcement of the
Other Party Liability Claims provision.
Defendant argues that the New Jersey Collateral
Source Statute, N.J.S.A. 2A: 15-97, prohibited him
from claiming medical expenses in his state court
action. Since Defendant did not claim medical expenses
and believed that New Jersey law prevented Defendant
from recovering medical expenses in the suit,
Defendant argues that he should not be required to
reimburse Plaintiff.3 The Court disagrees and finds
that the “Other Party Liability Claims” provision
should be enforced for two reasons: 1) ERISA
preempted the Collateral Source Statute in this
circumstance; and 2) the “Other Party Liability Claims”
provision constituted an equitable lien by agreement

2

Defendant also claims that, since he has already spent the
settlement proceeds, the lien is no longer enforceable. However, in
Funk v. CIGNA Group Ins., 648 F.3d 182, 194 FN 14 (3d. Cir.
2011), the Third Circuit rejected such an argument and held that
“contrary to the Court’s discussion in Knudson, the defendant need
not possess the property at the time relief is sought for the relief
to be equitable – any post agreement possession will suffice.”

3

Defendant also argues that Defendant’s attorney had no duty to
the Plan and had no duty to request reimbursement for medical
expenses. The Court finds this argument unpersuasive.

App. 83
and is enforceable regardless of the operation of the
Collateral Source Statute in the state court proceeding.
i. Preemption of the Collateral Source Statute
“Generally, a state law that ‘relates to’ an ERISAgoverned plan is preempted by ERISA.” Levine v.
United Healthcare Corp., 402 F.3d 156, 164 (3d Cir.
2005); see also 29 U.S.C. § 1144(a) (ERISA’s regulatory
structure “shall supersede any and all State laws
insofar as they may now or hereafter relate to any
employee benefit plan [subject to ERISA].”) (emphasis
added). Whether an issue is preempted by ERISA
hinges on whether it “relates to” an employee benefit
plan. See Metro. Life Ins. Co. v. Taylor, 481 U.S. 58, 6263 (1987). A claim “relates to” an employee benefit plan
“if it has a connection with or reference to such a plan.”
Shaw v. Delta Airlines, Inc., 463 U.S. 85, 98 (1983).
“Congress used th[e] words [relate to] in their broad
sense, rejecting more limited pre-emption language
that would have made the clause applicable only to
state laws relating to specific subjects covered by
ERISA.” Ingersoll-Rand Co. v. McClendon, 498 U.S.
133, 138 (1990) (citations omitted).
Here, the Collateral Source Statute is a law of
general application that requires “a plaintiff who
receives benefits from any source other than a joint
tortfeasor to deduct that amount from his or her
recovery in any civil action.” Levine v. United
Healthcare Corp., 402 F.3d 156, 164 (3d Cir. 2005). On
the other hand, the Plan requires Defendant to
reimburse Plaintiff for medical expenses from the
settlement proceeds, regardless of how the proceeds are
characterized. Since the Collateral Source Statute is

App. 84
preempted to the extent it relates to the Plan and the
Plan specifically requires reimbursement for medical
expenses from the proceeds of any suit related to the
injury, the Plan’s terms govern.
ii. Enforceability of the Terms of the “Other
Party Liability Claims” Provision
The Collateral Source Statute is not only preempted
by ERISA, but Plaintiff is also seeking to enforce the
modern day equivalent of an “equitable lien by
agreement.” See U.S. Airways, Inc. v. McCutchen, 133
S. Ct. 1537, 1544-45 (2013). An equitable lien by
agreement “both arises from and serves to carry out a
contract’s provisions.” Sereboff, 547 U.S. at 363-64.
“[E]nforcing the lien means holding the parties to their
mutual promises.” McCutchen, 133 S. Ct. at 1546.
“Even in equity, when a party sought to enforce an
equitable lien by agreement, all provisions of that
agreement controlled.” Id. at 1549. Therefore,
principles, such as unjust enrichment or collateral
source, are “beside the point” when parties demand
what they bargained for in a valid agreement. Id. at
1546. This holding is consistent with “ERISA’s focus on
what a plan provides.” Id. at 1548. Courts construe
ERISA plans, as they do other contracts, by “‘looking to
the terms of the plan’ as well as to ‘other
manifestations of the parties’ intent.” Id. at 1549;
Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101,
113 (1989).
Here, the Parties agreed that if Defendant accepted
benefits from the Plan he would reimburse the Plan
with the proceeds of settlements related to the injury.
The contractual language specifically states that money

App. 85
for medical expenses must be reimbursed “regardless
of how the proceeds are characterized.” Therefore, the
parties agreed that Defendant would reimburse
Plaintiff even if the settlement did not include money
for medical bills. Since the Plan’s language is clear and
the agreement controls, Defendant must reimburse
Plaintiff from the settlement.
c. Laches Defense
Before finding that Plaintiff prevails, the Court
turns to Defendant’s affirmative defenses. Defendant
asserts an affirmative defense of laches to bar the
enforcement of the equitable lien by agreement. To
assert a laches claim, a defendant must show:
(1) inexcusable delay by the plaintiff in pursuing the
claim; and (2) prejudice to the defendant as a result of
delay. Tracinda Corp. v. Daimler-Chrysler AG, 502
F.3d 212, 226 (3d Cir. 2007).
Here, Defendant argues that Plaintiff waited until
after Defendant settled his liability claim to seek
enforcement of its equitable lien by agreement.
However, the Court in Sereboff noted that an equitable
lien by agreement allows health plans to “follow a
portion of the recovery into the [defendant’s] hands as
soon as the [settlement fund] was identified.” Sereboff,
547 U.S. at 364. The fund was not identified until after
the settlement. Additionally, Defendant was not
prejudiced due to the fact that the lawsuit was filed
after the settlement; the Plan itself provided Defendant
notice of Plaintiff’s potential claim to settlement funds.
Thus, the affirmative defense of laches fails.

App. 86
d. Counterclaim
Finally, Defendant has counterclaimed pursuant to
29 U.S.C. §1132 (a)(1)(B) for a declaration that his
benefits are unaffected by this failure to reimburse on
the grounds that he does not owe the Plan any money.
Defendant has moved for summary judgment on that
count. (Doc. No. 22). For the reasons discussed above,
Defendant does owe the Plan and, therefore, cannot
prevail on this claim.
CONCLUSION
For the foregoing reasons, Plaintiff’s motion for
summary judgment is granted and judgment is entered
in favor of Plaintiff.
Anne E. Thompson
ANNE E. THOMPSON, U.S.D.J.
Date: 1/21/14

App. 87
NOT FOR PUBLICATION
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civ. No. 12-4322
[Filed January 24, 2014]
_____________________________
Board of Trustees of the
)
National Elevator Industry
)
Health Benefit Plan,
)
)
Plaintiff,
)
)
v.
)
)
Bernard McLaughlin,
)
)
Defendant.
)
_____________________________ )
ORDER and JUDGMENT
THOMPSON, U.S.D.J.
For the reasons included in the Opinion issued
herewith,
IT IS, on this 21st day of January, 2014,
ORDERED that the motion of Plaintiff Board of
Trustees of the National Elevator Industry Health
Benefit Plan for summary judgment, (Doc. No. 20), is
GRANTED; and it is

App. 88
ORDERED that the motion of Defendant Bernard
McLaughlin for summary judgment, (Doc. No. 22), is
DENIED; and it is
ORDERED that JUDGMENT be entered in favor of
Plaintiff Board of Trustees of the National Elevator
Industry Health Benefit Plan.
Anne E. Thompson
ANNE E. THOMPSON, U.S.D.J.

